<html>
<title> - ADDRESSING THE U.S.-PAKISTAN STRATEGIC RELATIONSHIP</title>
<body><pre>[Senate Hearing 110-723]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-723
 
          ADDRESSING THE U.S.-PAKISTAN STRATEGIC RELATIONSHIP 

=======================================================================

                                HEARING

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                   INFORMATION, FEDERAL SERVICES, AND
                  INTERNATIONAL SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 12, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-092 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, FEDERAL SERVICES, 
                AND INTERNATIONAL SECURITY SUBCOMMITTEE

                  THOMAS R. CARPER, Delaware, Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           PETE V. DOMENICI, New Mexico
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                    John Kilvington, Staff Director
                  Katy French, Minority Staff Director
                       Monisha Smith, Chief Clerk
















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................    11
    Senator Akaka................................................    11
    Senator Levin................................................    32

                               WITNESSES
                         Thursday June 12, 2008

Hon. Russell D. Feingold, a U.S. Senator from Wisconsin..........     2
Donald Camp, Principal Deputy Assistant Secretary of State for 
  South and Central Asian Affairs, U.S. Department of State......    11
K. Alan Kronstadt, Specialist in South Asian Foreign Affairs, 
  Defense and Trade Division, Congressional Research Service.....    23
Lisa Curtis, Senior Research Fellow, Asian Studies Center, The 
  Heritage Foundation............................................    25
Michael Krepon, Co-Founder, The Henry L. Stimson Center..........    27
Stephen P. Cohen, Senior Fellow, Foreign Policy Studies, The 
  Brookings Institution..........................................    29

                     Alphabetical List of Witnesses

Camp, Donald:
    Testimony....................................................    11
    Prepared statement...........................................    55
Cohen, Stephen P.:
    Testimony....................................................    29
    Prepared statement...........................................    92
Curtis, Lisa:
    Testimony....................................................    25
    Prepared statement...........................................    77
Feingold, Hon. Russell D.:
    Testimony....................................................     2
    Prepared statement...........................................    53
Krepon, Michael:
    Testimony....................................................    27
    Prepared statement...........................................    84
Kronstadt, K. Alan:
    Testimony....................................................    23
    Prepared statement...........................................    67

                                APPENDIX

Report of Senator Carl Levin and Senator Bob Casey, ``Travel to 
  Pakistan and Afghanistan''.....................................    47
Letter to Robert M. Gates, Secretary of Defense, from Senator 
  Levin, dated June 5, 2008......................................    51
Questions and Responses for the Record from:
    Mr. Camp.....................................................    95
    Mr. Kronstadt................................................    96
    Ms. Curtis...................................................   103
    Mr. Krepon...................................................   109
    Mr. Cohen....................................................   112


          ADDRESSING THE U.S.-PAKISTAN STRATEGIC RELATIONSHIP

                              ----------                              


                        THURSDAY, JUNE 12, 2008

                                 U.S. Senate,      
        Subcommittee on Federal Financial Management,      
               Government Information, Federal Service,    
                              and International Security,  
                          of the Committee on Homeland Security    
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:31 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Subcommittee, presiding.
    Present: Senators Carper, Levin, Akaka, and Coburn.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. The Subcommittee will come to order. 
Welcome to Senator Feingold and Senator Akaka. We will be 
joined by a number of our colleagues here in a little bit, but 
I just want to thank all the witnesses that are here, 
especially Senator Feingold who has joined us here today. He is 
going to talk for a little bit about his recent visit, he led a 
CODEL to a number of places, including to Pakistan.
    I understand Senator Feingold serves on three committees. 
Among them are the Senate Intelligence Committee, the Foreign 
Relations Committee, and the Judiciary Committee. And over the 
past recess, he was in both Pakistan and in India?
    Senator Feingold. That is right.
    Senator Carper. All right. But as I understand, most of 
your time was in Pakistan?
    Senator Feingold. That is correct.
    Senator Carper. My staff, who visited Islamabad, just 
missed you there, but they came back with press accounts. They 
said a lot of the stories were above the fold, which is not bad 
for an American Senator in a foreign country.
    And I understand that you traveled there because you view 
Pakistan, as do I, as the central front in the fight against 
extremism and critical to our national security. And while 
there, I am told that Senator Feingold was vocal on the ousting 
of the Chief Justice of Pakistan, noting that this and the 
reinstatement of other former judges is a simple rule of law 
matter that could jump-start institutional reform in Pakistan. 
And again, I would concur with that.
    He has also expressed some skepticism about the 
negotiations surrounding the Federally Administered Tribal 
Areas?
    Senator Feingold. Correct.
    Senator Carper. OK. And Senator Feingold, we thank you for 
your willingness to stop by today before we kick off this 
hearing, and invite our other witnesses just to share with us 
your thoughts about what our country should be doing with 
respect to our relationships with Pakistan. Senator, should we 
just go right to you? Take as much time as you wish.

 TESTIMONY OF HON. RUSSELL D. FEINGOLD,\1\ A U.S. SENATOR FROM 
                           WISCONSIN

    Senator Feingold. Well, thank you, Mr. Chairman and Senator 
Akaka.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Feingold appears in the 
Appendix on page 53.
---------------------------------------------------------------------------
    This is really very kind of you and I am happy to be asked 
to talk about this issue that I have been thinking about a 
great deal since my trip.
    This hearing is particularly timely given the critical 
juncture and this partnership with Pakistan. Although we have a 
checkered history with Pakistan, the recently elected civilian 
government provides an opportunity to develop a sound, 
comprehensive, bilateral relationship that serves the needs and 
the principles of both of our countries while also ensuring our 
national security and theirs over the long term.
    As you said, I recently returned from a four-day trip to 
Pakistan where I had the chance, as, frankly, other Senators 
did who were in the region at the same time, to meet with a 
broad range of political officials from numerous parties as 
well as with President Musharraf, Pakistani intelligence 
officials, the ousted Chief Justice--we actually met with him 
in his home where he had been held under house arrest--and 
representatives of Pakistan's civil society. I traveled to 
Peshawar, which lies near the border with Afghanistan and the 
tumultuous Northwest Frontier Province and to Pakistan-
controlled Kashmir.
    Senator Carper. How long were you there?
    Senator Feingold. A total of 3 days. And then in the 
Kashmir area, we were able to visit successful U.S.-funded 
earthquake recovery programs, which I think would make 
everybody feel very good about the schools and the dairies and 
the other things that we were able to help restore fairly 
quickly after a disastrous earthquake in an area that, frankly, 
has not been known for being a particularly pro-American area. 
So this is a real opportunity.
    I chose to visit Pakistan because it is out of that 
country, and I think obviously the Chairman sees this, as well, 
that we face our most serious national security threat. As the 
intelligence community has confirmed again and again, 
intelligence is the central front in the fight against al 
Qaeda. Confronting this threat, which includes addressing the 
al Qaeda safe haven in the Federally Administered Tribal Areas, 
must be our top national security priority. That means tracking 
down Osama bin Laden and other al Qaeda operatives and working 
with the Pakistan government to neutralize forces before they 
plot or carry out attacks against Americans. And yes, as you 
alluded to in your opening remarks, Mr. Chairman, it means 
making clear to our Pakistani friends that cutting deals with 
the al Qaeda or the Taliban is simply unacceptable.
    But these cannot be our only goals. The fight is more than 
a manhunt. If we are serious about fighting al Qaeda and 
preventing future generations of bin Ladens from emerging, we 
also must recognize the needs of the local population and 
expand our development assistance throughout a country where 
poverty and anti-Western sentiment is pervasive.
    A key part of this approach will require Pakistan's newly-
elected government to rein in the military apparatus, which has 
historically controlled much of Pakistan's politics and 
policies, sometimes overtly by a military dictator running the 
country and other times more discretely from behind the screen 
of a civilian-led government. And as Pakistan's new government 
seeks to establish itself, we have to find a way to defend our 
national security interests while recognizing that the 
emergence of a democratic civilian government in Pakistan is in 
our long-term strategic interests. We need the support of the 
Pakistani people and their democratically-elected leaders to 
successfully counter al Qaeda and extremism.
    There is an opening right now for the United States to 
develop a new relationship with Pakistan. This Administration's 
reliance on a single unpopular leader who came to power through 
a coup was a serious mistake that was inconsistent with our 
values and our national security interests. Now we must end 
that mistake by expanding our relationships and supporting 
basic democratic institutions. A more inclusive policy will 
allow our counterterrorism partnership to hopefully withstand 
the frequent turbulence of Pakistan's domestic policies and 
help mitigate already high levels of anti-American sentiment.
    I have never been to a country, Mr. Chairman, where you ask 
people all over the country who are being very cordial to you, 
we understand there is anti-Americanism here, and they say, 
``Yes, that is right.'' They usually try to tone it down a 
little bit. It was not hostile in terms of the comment, it was 
just, ``That is right,'' and they gave various explanations for 
it.
    Senator Carper. That is interesting because in Iran, I am 
told that the feelings toward our country are actually for the 
most part very cordial.
    Senator Feingold. That is an interesting contrast. I think 
that would--yes, you wouldn't get the same response.
    This Administration's policies toward Pakistan have been 
highly damaging to our long-term national security. Although 
Pakistan's domestic politics remain fragile, we must seize this 
occasion by working with those who promote democracy, human 
rights development, and the rule of law. We must align 
ourselves with the moderate forces critical to the fight 
against extremism and commit to supporting economic reform, 
legal political party development, and initiatives to integrate 
the FATA into the rest of Pakistan. This will not be easy, but 
it is long overdue and will help ensure that we are using all 
the tools at our disposal to fight al Qaeda and associated 
terrorist threats.
    Combatting extremism and denying terrorists the safe haven 
now found in the FATA requires, among other things, creating 
sustainable development strategies that provide both 
opportunities for the Pakistani people and, again, tangible 
examples of American good will as I saw in Pakistani Kashmir. 
This must include not only traditional development projects, 
but institution building and political engagement in a region 
long deprived of such opportunities. While we target terrorists 
and extremists in the FATA, we must also make sure that the 
people of the FATA have economic options that can help them 
resist terrorism and extremism while reducing anti-American 
sentiment.
    Supporting the Pakistani people as they seek to strengthen 
development initiatives and democratic institutions is not just 
an outgrowth of our values, it is in our national security 
interests. This is not to say that this process will be free 
from challenges. There are already serious hurdles that must be 
dealt with, including negotiations in the FATA and Northwest 
Frontier Province, both of which I think are cause for serious 
concern and skepticism. America's allies must know that there 
can be no negotiations with terrorists who have sworn to harm 
our country. Those who would plot against American troops in 
Afghanistan or Americans here at home must be pursued 
relentlessly.
    We must however recognize that the new leadership was 
elected democratically by the Pakistani people and we must try 
to work with them to advance our mutual interests in fostering 
security and development in the region, and again, Mr. 
Chairman, I am so pleased with your interest and the growing 
interest in the Senate that I think will be very valuable, 
quite a few Senators and also members of the House who really 
want to work on this Pakistan-America relationship over the 
long term.
    Thank you so much for having me.
    Senator Carper. Thank you very much. Sometimes when 
Senators testify to lead off a hearing, we don't ask questions. 
Would you be willing to take a question or two?
    Senator Feingold. Sure.
    Senator Carper. Senator Akaka, do you have a question or 
two you would like to ask of Senator Feingold, our colleague?
    Senator Akaka. I don't have a question but I want to thank 
Senator Feingold for his statement before this Subcommittee and 
to tell you that I first visited Pakistan 3 months after 
Musharraf took over the country after the coup. I visited with 
him and felt that he had some great ideas for the country and I 
am glad to hear you now say that it is about time that they 
move on democratically to a system. I am very interested in 
your comments about that.
    Senator Feingold. Senator, we can't ignore the fact that 
President Musharraf did side with us and provide help, but the 
level of resentment toward the United States among Pakistani 
leaders and the Pakistani people because we seem to put all our 
eggs in that basket, is a significant part of the anti-American 
feelings that I have described.
    Senator Carper. Senator Biden, my colleague from Delaware, 
has said to me from time to time that what we have had in 
Pakistan is not a Pakistan policy, we have had a Musharraf 
policy, and he suggested what we need is a Pakistan policy.
    Had you been there before?
    Senator Feingold. I was there briefly with Senator McCain 
and Senator Clinton----
    Senator Carper. That was an interesting group to go over 
with.
    Senator Feingold [continuing]. In 2005. Yes. The story I 
like to tell is they get off the plane and all the women in the 
country would run up to Senator Clinton, all the military men 
would run up to Senator McCain, and I would hold the luggage. 
[Laughter.]
    But actually, it was a fabulous trip and we had a very long 
conversation with Musharraf, and the contrast between meeting 
with him now with his changed political situation and then was 
really striking.
    Senator Carper. When you look at our policy and the things 
that we are doing as a country in Pakistan now, what makes 
sense and what doesn't?
    Senator Feingold. In terms of our policy right now?
    Senator Carper. Yes.
    Senator Feingold. Well, we have to engage these new 
political leaders. They are impressive people. They include at 
least two major political parties that are a very tenuous 
coalition. But these are strong people----
    Senator Carper. Is this a coalition sort of like the 
coalition governments they put in Israel, or would it be a 
coalition more like putting the Democrats and Republicans 
together here?
    Senator Feingold. A little bit closer to being the 
Democrats and Republicans being together, although not exactly, 
but these really are political parties that are not terribly 
similar. They have represented two very different views of the 
future of Pakistan, two different philosophies. But what they 
do share is a desire to return Pakistan to a democratic system, 
and they are talented and they are interested in our views.
    I also want to add that among the upbeat things I felt in 
Pakistan was a better attitude about their future relationship 
with India, which has been a source of such difficulty. Now, no 
one is naive to think that is easy, but that was almost an 
upbeat topic and there seemed to be a willingness and an 
interest in that, which I think would be good for us and good 
for India.
    So to me, we need to engage these folks. On the other hand, 
we can't say that our relationships with them are more 
important than making sure that the FATA region is not used as 
either a safe haven for al Qaeda or a launching pad for attacks 
on our troops in Afghanistan. That is non-negotiable for us, 
and I tried to make that clear, that is the bottom line for us. 
They can't have complete internal peace and democracy in 
Pakistan at the expense of our national security, that the two 
have to work hand in hand.
    Senator Carper. Speaking of security, did you get a feel 
for the kind of security that is provided for their nuclear 
weapons? I am told they have anywhere from 50 to 100 warheads 
or more.
    Senator Feingold. I did not get a detailed feel for that. I 
actually had longer, more extensive conversations on that with 
Ambassador Crocker in the previous visit, who at the time was 
the Ambassador to Pakistan. But I did get some briefings on it, 
and without getting into any details, there are concerns, but 
there are also some feelings that there are real efforts being 
made to secure that. But that is a matter of great importance.
    Senator Carper. All right.
    Senator Feingold. Thank you very much.
    Senator Akaka. Mr. Chairman, may I now ask a question here? 
When I first went there at that time, I was very impressed with 
Musharraf because he told us some things that literally had my 
jaws fall open. One was that he wanted to make Pakistan 
literate, and so he introduced us to a woman who was going to 
be the Minister of Education and she was going to make it 
literate.
    Second, he introduced us to his financial person and he 
said he was going to correct the mistakes that they had 
financially there. Secretary of Treasury Rubin at that time 
told me that they hired this person through their firm in New 
York and that Musharraf was taking him there to work there.
    The third was he introduced us to a Minister of Foreign 
Affairs who also worked in the United States and had ideas 
about relationships. So those were three areas that he said he 
wanted to really improve. Did you have any sense as to these 
areas and those improvements?
    Senator Feingold. Well, in fairness to President Musharraf, 
as I understand it, he did pass significant legislation, 
working with the government there to improve women's rights, 
which were a serious issue in Pakistan, continue to be, 
something I pressed him on. But I actually had a chance to meet 
with some civil society leaders and a woman who was 
particularly known for her leadership in that area and she told 
me that things were somewhat improved.
    In terms of the economy, President Musharraf spoke at 
length about how proud he is of the growth of the Pakistan 
economy under his leadership and his greatest concern was that 
might be slipping under this new government. Now, of course, 
the new leaders of the new government didn't agree with that, 
but he cited some of the things that you alluded to, Senator 
Akaka, as being important results of his presidency and I, of 
course, can't deny that economic development and the future of 
Pakistan is a terribly important thing, but it isn't more 
important than having a democracy, and so the two must work 
hand in hand.
    Senator Carper. One last comment and maybe a question. In 
the elections that were held 6 months or so ago, as I recall, 
the party was tending to be supportive of President Musharraf, 
their turnout, their support was greatly diminished.
    Senator Feingold. That is right.
    Senator Carper. The support of the other two major parties 
rose up dramatically. But as I recall, there were religious 
parties that were involved, as well, and their support turned 
out to be rather small.
    Senator Feingold. Well, one particularly interesting 
development was in the Northwest Province, where--I want to be 
corrected if I get this wrong, but I believe it is right--a 
more traditional religious hard-line party was defeated----
    Senator Carper. Yes----
    Senator Feingold [continuing]. By a more open-minded, at 
least in my view, party, and I had a chance to meet with some 
of their new officials, and this is out in one of the more 
conservative areas where we were near the FATA. And so that was 
an exciting development, that instead of a hard-line, sort of 
narrower approach, that actually suggested maybe that people in 
that region were tired of that and that they wanted some hope 
and economic opportunity and a sense of being connected to the 
rest of Pakistan and the rest of the world. So I believe that 
was one of the encouraging results of the election, and they 
are affiliated, as I understand, with the government now.
    Senator Carper. Well, there is an irony that is not lost on 
me, and probably not lost on the others. I watched a film a 
couple of months or two ago with my older boys and with my 
wife--``Charlie Wilson's War.'' At that time, we were using our 
influence and our resources to help destabilize--undermine the 
Soviet position in Afghanistan and using folks that were pretty 
much in the Northwestern part of Pakistan to help do that. So 
we have actually seen--I am kind of mixing metaphors here, but 
we have seen this movie before while we were sitting in a 
different seat when we watched it the last time.
    Senator Feingold. And the part of the movie that the 
Pakistanis don't like is that after we did that, we just took 
off----
    Senator Carper. Yes.
    Senator Feingold [continuing]. And we didn't stay committed 
to that region, and so it is not only that we backed Musharraf, 
it is this feeling that we are there when it sort of fits our 
purposes but then we are not around--we don't have a consistent 
policy. And so, I got one question in Pakistan from people 
saying, well, why are all these Senators running around 
Pakistan meddling, U.S. Senators, meddling in our affairs? And 
I said, I take a different view. I said, I think it is a big 
mistake for us not to have this kind of exchange. We certainly 
shouldn't go over our bounds, but the biggest mistake we could 
make is to not be knowledgeable and engaged with the 
Pakistanis.
    So I thought it was great that there were as many as 10 
Members of Congress over there during the May break. I hope it 
is a sign in the long run to the Pakistanis that we aren't 
going to be fair-weather people in terms of being interested in 
our relationship but that it will be maintained, and that is up 
to all of us to keep going there and talking about it and doing 
exactly what you are doing today, Mr. Chairman, which I think 
is really positive. Thanks so much.
    Senator Akaka. Mr. Chairman, there is one final question 
here. We are interested in the military because he was General 
Musharraf----
    Senator Feingold. Yes.
    Senator Akaka [continuing]. And at that time, he had 
military people all over the buildings. And so a question to 
him was, will this be a military government, and his answer 
was, as soon as he could, that he would relieve the place of 
any military security, and I just wondered whether that has 
happened.
    Senator Feingold. Well, he didn't move very quickly on 
demilitarizing the tone of his regime. In fact, I specifically 
asked him, as many others did, if he would please not be both 
president and head of the army at the same time, which he 
maintained for a very long time, until recently, which was an 
inappropriate combination. So there was an inappropriate 
connection there that was bad for Pakistani democracy.
    Now that the new government is in place, the military 
leaders of the country are making a concerted effort to show 
that they are not trying to meddle in political affairs. In 
fact, some of them would not meet with some of the Senators, 
including me, because they didn't think that was appropriate. 
They did meet, as I understand it, with some of our armed 
services people, but the message I think they are trying to 
send is that civilian leaders will be your contact rather than 
military leaders in most cases, which I think, depending on 
whether that is really what they are trying to do, is probably 
a good sign of a different approach rather than such a heavily 
military-laden look to the Pakistani government.
    Senator Carper. We don't have time to ask these. I wish we 
could get into whether or not the Pakistani leaders with whom 
you might have spoken, if they felt any kind of a sensitivity 
or understanding with respect to our concern about the safety 
of our troops----
    Senator Feingold. That was a--excuse me.
    Senator Carper [continuing]. And the fact that they are not 
doing what they need to do in the Northwestern Region, it puts 
our people more at risk.
    Senator Feingold. I met with the governor of the Northwest 
Frontier Province, a very eloquent man, and he gave a very long 
and very precise explanation of what these agreements were, how 
they are trying to put language in the agreements to make sure 
that it was understood that there should be no border crossings 
into Afghanistan, etc., and he was very precise.
    But after he finished, I said to him, look, there are two 
things you have to understand about the American people. There 
are two things we can't tolerate. One is Osama bin Laden is in 
your area, not just in Pakistan, he is right here. That is what 
most people believe, and the others. Second, this is used as a 
launching pad to kill American troops.
    Senator Carper. We are trying to protect a democratically-
elected government in Afghanistan.
    Senator Feingold. That is right. I just said, those two 
things are not acceptable to any people in the world and the 
American people can't accept it. So we do want you to be able 
to achieve peace within your region, but not if that is the 
price that we, as Americans, have to pay. So that is a message 
I tried to convey not only in Islamabad, but directly in the 
region where we are pretty sure these folks are.
    Senator Carper. Thank you so much.
    Senator Feingold. Thank you. This is a great opportunity 
and I appreciate it.
    Senator Carper. We appreciate very much your being our 
lead-off hitter, a good one, too. Thank you so much.
    I am going to ask our next witness, Donald Camp, to go 
ahead and approach the table. I am going to give a statement 
while you do that and then yield to Senator Akaka for a 
statement. Then if there is no one else who has joined us by 
that point in time on our panel, I will ask you, Mr. Camp, to 
proceed.
    We are going to have a vote starting around 3 p.m. and we 
will probably have to be over to the floor to vote by about 
3:15 p.m.. There is a chance that we may be able to get through 
our opening statements and your testimony before that happens, 
so hopefully that is my goal.
    But before I start off, I just want to give special thanks 
to the over 500 men and women serving in the U.S. Embassy in 
Pakistan. Based on a recent visit to Islamabad, my staff tells 
me that our Ambassador there, Anne Patterson, runs a tight, 
organized ship. I understand she is a woman from Arkansas, as 
is Wendy Anderson. We commend our Ambassador for her leadership 
and all our personnel there for the capable service to our 
country.
    Political instability, a growing Islamic insurgency, a 
demoralized army, and an intensely anti-American population are 
the hallmarks, unfortunately, of today's Pakistan. In fact, 
most national security experts agree that Pakistan is the most 
dangerous country in the world today. Admiral Mike Mullen, the 
Chairman of the Joint Chiefs of Staff, recently called the 
border region between Afghanistan and Pakistan, and this is his 
quote, ``the site of planning for the next attack,'' his words, 
``on the United States.'' The region is also widely thought to 
be the hiding place of Osama bin Laden, as pointed out by 
Senator Feingold.
    It has become clear in recent months that the billions of 
U.S. dollars poured into Pakistan have not helped, 
unfortunately, to secure its borders with Afghanistan, in large 
part because we failed to link assistance to specific policy 
goals. We also know our policies toward Pakistan since 
September 11, 2001, have failed to stop or even to mitigate 
anti-Western militants or religiously-based extremist elements 
in Pakistan.
    In fact, a study released by the RAND Corporation says that 
Pakistani intelligence agents have aided both Afghani and 
Pakistani Taliban insurgents and compromised U.S. military 
movements. RAND warns that the United States will face, in 
their words, ``crippling long-term consequences,'' if insurgent 
strongholds in Pakistan are not removed.
    In light of the virulent anti-American Islamic insurgency 
raging on the borders between Afghanistan and Pakistan today, 
from Balochistan to the Federally Administered Tribal Areas, 
FATA, and up to the Northwestern Frontier Province, we must 
decide how to effectively move forward with this partnership.
    I think it goes without saying that the safety and security 
of Pakistan's nuclear arsenal is of utmost importance. Again, I 
said earlier, anywhere from 50 to maybe as many as 200 warheads 
are involved here. Preventing Pakistan's nuclear weapons and 
technology from falling into the wrong hands should remain a 
top priority for all of us. The possibility of al Qaeda or 
another terrorist group acquiring a warhead or enough 
radioactive material to create a dirty bomb is something that 
we simply cannot leave to chance. And while there appears to be 
a very small chance that Pakistan's nuclear assets could be 
seized by terrorists or other militant groups, the United 
States should pursue policies that promote the safety of 
Islamabad's nuclear capabilities.
    These facts lead to a series of urgent questions. If, in 
fact, the mountainous border region between Afghanistan and 
Pakistan is the site of planning for the next attack on the 
United States, as Admiral Mullen has stated, what, therefore, 
will the United States do in the short-term, say between now 
and January 2009, vis-a-vis the lawless region between 
Afghanistan and Pakistan?
    What are the long-term objectives on how to address this 
dangerous region?
    The Bush Administration, Congress and the 9/11 Commission 
have recognized that the United States needs a long-term 
comprehensive plan to address the terrorist threats in 
Pakistan. Why hasn't the Administration developed such a plan?
    In October last year, the U.S. State Department provided 
Congress with a report that certified that Pakistan was making 
significant and sustained progress toward eliminating the safe 
haven for terrorists. However, a recent GAO report noted that 
there was broad agreement, including among the Director of 
National Intelligence, the U.S. Embassy officials in Islamabad, 
the Department of Defense, and others that al Qaeda had 
established a safe haven in the Federally Administered Tribal 
Areas and reconstituted its ability to attack the United 
States. What was the basis for the State Department's finding 
that Pakistan was making significant and sustained progress?
    The RAND study also reported continued support by Pakistan 
government agencies of the Taliban. Is there any recent 
evidence of the Pakistani intelligence or military officials 
supporting terrorist elements in acquiring or training to use 
nuclear, chemical, or biological weapon technology?
    What do we know about the Pakistani government's 
involvement in nuclear missile proliferation activities? How 
effective has the U.S. policy been in stopping or reducing 
these activities? How credible is the Pakistani's government's 
disavowal of any knowledge of former Pakistani nuclear 
scientist A.Q. Khan's proliferation activities, especially in 
light of his very recent recanting of his confession? How 
secure are Pakistani government controls on its nuclear weapons 
arsenal and facilities?
    Today, with these questions in mind, I want us to try to do 
the following: First, to accurately assess to date the efforts 
of the Bush Administration, our country's policy toward 
Pakistan. I want us to discuss the most effective strategic 
policy options regarding Pakistan, particularly with regards to 
ensuring the safety and security of its nuclear arsenals and 
addressing Islamic extremism. And finally, I would like to see 
us solicit some ideas about how Congress, how my colleagues and 
I, can play an active and effective role in the path forward.
    If our national security is linked to the success, 
security, and stability of a democratic Pakistan, I believe the 
United States has no choice but to do more. Dr. Stephen Cohen, 
one of our witnesses today, summed it up well in his written 
testimony. He said, ``Short term measures regarding terrorism 
and nuclear technology should not get in the way of long term 
strategies to stabilize Pakistan.''
    Therefore, we must work with Pakistan and our other allies 
to develop a strategy that creates long-term goals for success. 
This should include providing much more U.S. non-military 
assistance and demanding greater transparency and 
accountability in U.S. military aid to Pakistan, as our 
colleague, Senator Joe Biden, a strong leader on this issue, 
has asserted.
    Again, we thank all of our witnesses for taking this 
opportunity to talk with us today about the nature of the 
challenges before us and how best to address them.
    Senator Coburn, welcome.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you. Given the fact that we have a 
vote on, I concur with a lot of the questions you have asked, 
and then we will get forward to our testimony.
    Senator Carper. Thanks so much.
    Senator Akaka, would you like to make an opening statement.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Mr. Chairman, I will submit my statement for 
the record.
    [The prepared statement of Senator Akaka follows:]
                  PREPARED STATEMENT OF SENATOR AKAKA
    I'd like to thank Senators Carper and Coburn for holding this 
hearing. We all recognize the vital importance to American security of 
maintaining a strong strategic relationship with Pakistan. I just have 
two comments.
    First, I am concerned that Pakistan's Federally Administered Tribal 
Areas remain sanctuaries for our enemies. If history is to guide us, 
there is very little hope that this will change. These areas have 
always been ungoverned except by tribal law. I am not fully confident 
that our strategy to aid Pakistan forces to assert control is going to 
be successful. Our main hope may instead be to contain our enemies in 
this enclave.
    Second, I am concerned that the longer political instability 
continues in Pakistan, the greater the risk that Pakistan's nuclear 
program will be infiltrated by al Qaeda. To date all indications are 
that Pakistan maintains firm control over the security of its program. 
But this security could be affected by a breakdown of authority. We 
need to do more, much more, to reinforce Pakistan's democracy and the 
rule of law.
    I would again like to thank Senators Carper and Coburn for 
arranging this hearing and add my welcome to our witnesses.

    Senator Carper. Thanks so much.
    Mr. Camp, just a brief introduction. He is currently a 
Principal Deputy Assistant Secretary of State for South and 
Central Asian Affairs. From 2006 to 2007, Foreign Policy 
Advisor to the Chief of Naval Operations, and now Chairman of 
the Joint Chiefs of Staff, Admiral Mike Mullen. And prior to 
that, I understand, among other things, you were Deputy 
Assistant Secretary and then Principal Deputy Assistant 
Secretary for South Asia from 2001 to 2006. You have a long 
resume and we are grateful that you are here and grateful for 
your service.
    Please proceed. Your entire statement will be made part of 
the record. Feel free to summarize.

    TESTIMONY OF DONALD CAMP,\1\ PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY OF STATE FOR SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Camp. Thank you, Mr. Chairman. I will summarize it 
briefly. Mr. Chairman, Members of the Subcommittee, thank you 
for inviting me here to discuss U.S. strategy with regard to 
Pakistan. Like Senator Feingold, I welcome the growing interest 
in the Senate in our policy toward Pakistan. More than ever, 
our national security is linked to the success, security, and 
stability of a democratic Pakistan.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Camp appears in the Appendix on 
page 55.
---------------------------------------------------------------------------
    We must build a comprehensive, long-term partnership with 
the Pakistan government and people. The February 18 elections 
provided a new opportunity for us to do so. Our strategic 
priorities in Pakistan include strengthening its democratic 
civilian institutions, enhancing counterterrorism cooperation, 
particularly in the border region, and ensuring its nuclear 
weapons remain secure and unused. Economic and social 
development is an essential element to achieving each of these 
strategic objectives.
    Ensuring the success of Pakistan's democratic transition is 
a core priority. On February 18, the Pakistani people cast 
their votes for moderate leaders, repudiating extremist voices 
and demonstrating that a moderate democratic center prevails as 
the country's dominant political force. We are engaging with 
the new government and all the political parties to strengthen 
participatory democracy and to build a broad-based, long-term 
relationship between our two countries.
    We believe that a moderate government with a democratic 
mandate will be a more effective partner in the fight against 
terrorism. Pakistan is a significant partner on the front line 
in this war. Pakistan has lost over 1,400 members of its 
security forces since September 11, 2001.
    Recently, we have heard about the negotiation of peace 
agreements with certain groups in the Tribal Areas. 
Negotiations with tribes in Pakistan are not a new tactic. We 
understand that the recent negotiations are part of Pakistan's 
hopes for bringing security and stability to the Tribal Areas. 
However, outcomes are what matter. Any agreements must advance 
the goals of ending al Qaeda and Taliban activity, ending 
suicide bombers, ending cross-border attacks. Each agreement 
must be weighed case by case based on results.
    Our efforts in Pakistan and Afghanistan are intrinsically 
linked. In order to achieve stability and security in either 
country, we must achieve it on both sides of the border. Our 
challenge is to more effectively coordinate and synchronize 
operations by both nations and by our coalition partners.
    Let me say a couple of words about nuclear security. 
Nonproliferation cooperation is another critical aspect of our 
long-term strategic partnership with Pakistan. Pakistan has 
taken constructive steps to enhance the security of its nuclear 
materials and assets and to prevent diversion of sensitive 
items and technologies, as occurred with the A.Q. Khan network. 
We are encouraged by Pakistan's improvements in export controls 
and its participation in the Global Initiative to Combat 
Nuclear Terrorism. We will continue to work with Pakistan to 
help ensure that its nuclear weapons remain secure.
    On the development side, a sustained commitment to help 
Pakistan develop its economy is essential to achieving our key 
strategic objectives. It will strengthen Pakistan as a partner 
with the United States and the international community.
    I would like to mention Reconstruction Opportunity Zones as 
an important piece of our long-term strategy. These zones can 
attract domestic and foreign investment and create sustainable 
employment opportunities in the FATA. There is a bill before 
the Senate to address these now and we support that bill.
    There is a comprehensive frontier strategy presented by the 
government of Pakistan which emphasizes economic and social 
development. The United States has committed $750 million over 
5 years in support of this sustainable development plan for 
infrastructure development in the territories.
    Additionally, we have partnered with the government of 
Pakistan in launching the Security Development Plan to enhance 
its ability to secure the border. This involves training the 
Frontier Corps, improving the capabilities of Pakistan's 
special forces, and constructing Border Coordination Centers.
    In conclusion, for our commitment to Pakistan to be long-
term, it must also be bipartisan. We appreciate the Congress's 
sustained commitment to Pakistan, particularly the interest of 
Members of this Subcommittee. I understand that Senator Levin 
recently returned from a successful trip and that you, Mr. 
Chairman, are interested in visiting soon. I hope you will do 
so. We hope that together, Congress and the Administration can 
establish a new framework, a long-term framework for economic 
and security assistance that can support Pakistan's democracy.
    In conclusion, our long-term commitment is of immense 
importance to our partnership with the Pakistan people and 
their security, as well as to the security of the American 
people and the international community. That is why we need to 
work together to help the newly-elected Pakistan government 
build strong democratic institutions, combat the threat of 
terrorism, and ensure the security of its nuclear weapons.
    Thank you. I would be happy to take your questions.
    Senator Carper. Thank you very much for your statement.
    I thought earlier I might just submit questions for the 
record, but I would like to ask some questions, but would you 
like to lead it off, Senator Coburn?
    Senator Coburn. Yes, I will. Thank you, and thanks for your 
testimony.
    The $1 billion aid package, the FATA development strategy, 
why were there no conditions on that aid package on political 
reforms in the Tribal Regions, such as rule of law reforms, 
integrating the FATA into the Northwest Frontier Province under 
the full jurisdiction of both the legislature and the judicial 
system? Why were there no strings attached to that that would 
certainly further our interests and their stability with that 
money?
    Mr. Camp. Senator, I think that the question, particularly 
of integrating the Tribal Areas with the rest of Pakistan, is 
an issue that needs to be addressed. It needs to be addressed 
by Pakistan. It is a tough issue. The FATA has been separate 
for decades. I don't think it is an issue that we can 
necessarily impose our will on Pakistan. There are many voices 
that have spoken up in favor of this integration into the 
settled areas of Pakistan, as they are called, but again, it is 
not so much for us to condition our assistance, it seems to me. 
The assistance that we are offering is really in our interest, 
as well, because we have a basic national security interest in 
helping to develop and stabilize the border areas.
    Senator Coburn. The economic package that you have is about 
three-quarters of a billion dollars, $750 million, and in your 
statement just a minute ago you said outcomes are what matters, 
except on that package there are no metrics. There is nothing 
with that that says how we are going to measure what the 
outcomes are. What are the measurements? How do we know the 
three-quarters of a billion dollars we are going to invest in 
this economic package will work, since the State Department has 
no metrics to say, this is what we conclude is a success?
    Mr. Camp. Sir, I think that the metrics are basically 
poverty alleviation, economic development, literacy, raising of 
literacy rates. Literacy rates in the FATA are abysmally low. I 
have heard the figure of 3 percent for female literacy in the 
Tribal Areas. Enrollment in schools is going up. There is a 
metric that I think is a useful one.
    All of these things will demonstrate that we are achieving 
success. In the long run, I think we have to look at 
intangibles, too, things like the existence of open democratic 
elections, which is not something that necessarily is 
susceptible to tangible measurements, but certainly is very 
important. So I would say that there are performance plans. 
When we put together these assistance programs, we make very 
clear what the expectations are in terms of raising people out 
of poverty and providing new opportunities, particularly 
employment opportunities in the FATA.
    Senator Coburn. Balance for me, if you will, if there is 
not a judicial system, if there is not rule of law, and we are 
going to invest in infrastructure, whether it is clinics or 
schools or roads, prime targets for violence, prime targets if 
there is no other infrastructure--I guess what I am asking is 
which comes first and how do we measure them.
    And then the second part of the question, in the oversight 
of this investment, where U.S. AID failed in Afghanistan was 
because there was not the security available to U.S. AID to 
oversee what was actually happening. What are you doing in 
terms of making sure the security is there for the investment 
so that we can see what the contractors are doing and making 
sure when we say a school is built, it was built, or a hospital 
is built, it was built? What have we learned from the failures 
in the investment in Afghanistan?
    Mr. Camp. Well, in fact, I asked this question of a 
colleague who works for U.S. AID in anticipation of just this 
kind of question, and his answer was rather interesting, and 
that is to say we have learned from--we have moved into the 
FATA in a rather measured way. We understand that there are 
problems in working in parts of the FATA for security reasons, 
but we do work actually in all seven agencies, as they are 
called, of the FATA.
    What we are trying to do is develop sort of innovative 
oversight techniques. One that he cited, for instance, is 
building schools. We have satellite images. We can verify that 
schools have been built, where they have been built. That is 
just one example.
    Senator Coburn. Well, the problem was in Afghanistan, we 
built the schools and the first snow, the roofs caved in. So, I 
guess do we have a structure in place so that the overseers of 
the contractors can actually get there and see that the 
investment is what we expected it to be?
    Mr. Camp. I would say that, first of all, we are building 
up our personnel in Peshawar, which is the center of the 
Northwest Frontier Province, in order to be able to do this. 
That doesn't mean that Americans will be traveling to 
Waziristan or one agency to inspect. We are working through 
NGOs. We are working through the government of Pakistan. We are 
depending on them to do these verifications, to do this 
assessment, basically.
    Senator Coburn. I understand the security risk, but----
    Senator Carper. I think we have about seven minutes to go. 
What do you say we recess here and we come right back?
    Senator Coburn. OK. All right.
    Senator Carper. We have about 7 minutes left. We will be 
back in about 15 minutes or so. We are going to stand in recess 
now and we will be back shortly. Thank you.
    [Recess.]
    Senator Carper. Let us resume our proceedings. Thank you 
for your patience. I am going to turn now for further 
questioning of our first witness, Mr. Camp by Senator Akaka.
    Senator Akaka. Thank you. Thank you very much, Mr. 
Chairman, for holding this hearing. I want to say that I had 
two concerns and one is that concern about Pakistan's Federally 
Administered Tribal Areas that remain sanctuaries for our 
enemies. If history is to guide us, there seems to be very 
little hope to change this.
    Also, my other concern is that the longer political 
instability continues in Pakistan, the greater the risk that 
Pakistan's nuclear program could be or will be infiltrated by 
the al Qaeda, and to date, all indications are that Pakistan 
maintains firm control over the security of its programs.
    Mr. Camp, Ahmed Rashid's book, ``Descent Into Chaos,'' 
describes a double game that Pakistan's military intelligence 
agencies have been playing. On the one hand, appears to support 
the Taliban and other militias as a weapon against India. On 
the other, these agencies are working with the United States to 
counter hostile militias in the FATA. Is this true?
    Mr. Camp. Senator, I would just say that the government of 
Pakistan has been very clear, and President Musharraf, in fact, 
was very clear after September 11, 2001, and has fully 
supported the war on terrorism. The newly-elected civilian 
government has not only reiterated this commitment, but made it 
very clear that they view the war as their war. In other words, 
it is not just the Americans and it is not just about 
protecting the homeland, but it is about protecting Pakistan 
from people who are their enemies, as well. Therefore, I would 
say that I take with a grain of salt the assumption that 
Pakistan's official agencies are playing this kind of double 
game.
    Senator Akaka. In your testimony, you mentioned that 
Pakistan's new export control organization has been reaching 
out to technology holders and law enforcement officials. Is the 
United States providing any assistance to Pakistan's new export 
control system?
    Mr. Camp. We have been very supportive of their new laws on 
export control licensing and their enforcement body. We have 
worked with them in things like the Global Initiative, and I 
think really it is probably best to leave that discussion right 
there. If you would like me to get further information on 
specifically what we are doing on export controls, I would be 
glad to provide that separately.
    Senator Akaka. I would like to have that information, and 
to include this one, if you can't answer it now. Can you 
identify any instances where enforcement has prevented the 
proliferation of sensitive exports?
    Mr. Camp. I will find out if we have such evidence. I don't 
have it with me right now.
    Senator Akaka. Fine. We look forward to that information.
    Mr. Camp, the U.S.-Pakistan strategic relationship cannot 
ignore nuclear weapons or India. Recently, India's prime 
minister announced that India has no intention of getting rid 
of its nuclear weapons unless other major powers also disarm. 
In this situation, it appears that Pakistan would also be 
unlikely to disarm. Should the United States be encouraging 
nuclear disarmament in the region, and if so, what should we be 
doing?
    Mr. Camp. Senator, I think that, first of all, it is well 
established U.S. policy and certainly something we all believe 
in that the subcontinent would be far safer, far better without 
nuclear weapons. That said, I think what we can do and what we 
should do is do everything we can to support those two 
countries developing a better relationship, encouraging them to 
work independently to develop a more amicable relationship, and 
I am pleased to say that the trend is in that direction, that 
India and Pakistan both have recognized the importance of 
working together, and I think that goes for this newly-elected 
government of Pakistan, as well, very much.
    Senator Akaka. Mr. Camp, in Dr. Cohen's testimony, he 
argues that the United States should also consider a criteria-
based nuclear deal with Pakistan as a way of encouraging them 
to limit and secure their existing nuclear weapons. He also 
suggests that Pakistan might get support for its civilian 
nuclear program in exchange for greater security assurances. 
What is your opinion of this suggestion?
    Mr. Camp. I think, Senator, that I will reserve judgment on 
that because that is a new idea that we really don't have an 
established position on and I would just rather not get into 
that area, if I may respectfully hold back on that.
    Senator Akaka. All right. Well, thank you very much, Mr. 
Chairman.
    Senator Carper. Mr. Camp, a couple of questions, if I 
could. The first is a series of three short questions and I am 
going to repeat them maybe twice just to let you think about 
them. You have lived in Pakistan, right?
    Mr. Camp. I have visited many times. I have never actually 
lived there.
    Senator Carper. All right.
    Mr. Camp. I have lived in other parts of the----
    Senator Carper. When most recently were you there?
    Mr. Camp. Two months ago.
    Senator Carper. All right. What is your broad assessment, 
please, of the outcomes of U.S. policy toward Pakistan since 
2001, and a couple of follow-ups. One, what aspects of our 
policy there do you think have been most successful in serving, 
first of all, our national interest, but also the national 
interest of Pakistan, and what are some aspects that you might 
want to change? So if you will, again, the broad assessment of 
the outcomes of our policy toward Pakistan since 2001, what 
parts or portions of that policy do you think have been 
successful, both for us and for the national interests of the 
Pakistanis, and what are some aspects that you would change?
    Mr. Camp. I would say that what has been most important is 
that we have been there and we have made the commitment to 
Pakistan that we are planning to be a long-term partner of 
Pakistan. President Bush, in particular, made a commitment to a 
5-year assistance program, something that is not something we 
normally do. It was a 5-year, $3 billion assistance package, 
evenly divided between security assistance and development 
assistance. That was from fiscal year 2005 to 2009. It has 
been, I think, successful in demonstrating our commitment in 
both sides of the equation with Pakistan.
    As we complete that package in 2009, this is the 
opportunity, I think--and this is along the lines of what we 
should be doing--this is an opportunity to renew the long-term 
strategic framework with Pakistan to find a way to make very 
clear to the Pakistan people that the United States and 
Pakistan have a long-term future, because that is something 
that is often questioned in Pakistan.
    Senator Carper. What aspect of our policies would you 
change?
    Mr. Camp. I would say, Senator, that we are adapting to a 
new situation----
    Senator Carper. Yes, we are.
    Mr. Camp [continuing]. And very pleased to have a newly 
democratically-elected government. What we are doing, and this 
is not to say it is a change in policy but it is something that 
we always do, that Ambassador Patterson, whom you mentioned in 
your opening statement, has been assiduously meeting every 
political leader in Pakistan and making sure that Pakistanis 
understand that we want to work with all the political parties 
in Pakistan, work with the new government, and that includes 
across the board, including the religious parties that have 
been referred to, as well, and I think that is a very important 
signal for our future relationship with Pakistan.
    Senator Carper. What is the likelihood that the Chief 
Justice, their top judicial leader who was deposed, what is the 
policy, or how would he come to be reinstated? How would that 
happen?
    Mr. Camp. There are all sorts of scenarios out there, 
Senator. It is very much tied up in domestic Pakistani 
political politics at the moment--domestic politics at the 
moment. There are proposals to----
    Senator Carper. I wonder if their judicial nominating 
process is as convoluted as ours can be here.
    Mr. Camp. In fact, there is no sort of confirmation process 
in Pakistan that I am aware of.
    Senator Carper. I wonder if they have a blue slip policy 
that we have here. Probably not.
    Mr. Camp. They do have a Pakistan Bar Association, which, 
in fact, has been very much involved in the lawyers' movement. 
There is legislation pending now before the Pakistani 
Parliament and I am confident that the Pakistani parties will 
work out a way to handle this, but it is very complicated 
because you have a Chief Justice in place at the moment and the 
proposal is to replace him with the previous Chief Justice.
    Senator Carper. Obviously, there is enormous complexity in 
terms of the groups that are operating in a lawless region 
northwest of--between Afghanistan and Pakistan. You have 
different groups operating in the Federally Administered Tribal 
Areas, the Pakistani Taliban, we have the Afghan Taliban, we 
have al Qaeda, and we have other sectarian groups, as well. Do 
you believe that we, in this country, have a sufficient 
understanding of just who we are fighting? And next, which 
groups do we work against first and how do we go about 
prioritizing that?
    Mr. Camp. Sure. I think, first of all, we are dealing with 
Pakistani sovereign territory, so, in fact, we work with the 
Pakistanis to attempt to address these problems. I think that 
you are quite right. The situation in the Tribal Areas is 
extremely complicated. I think, in fact, outsiders do not 
probably have a great understanding of tribal dynamics in that 
region and I think it is----
    Senator Carper. Although, again, 20 years ago, or however 
long ago it was when we were fighting Charlie Wilson's war, I 
wonder if we had a better understanding.
    Mr. Camp. And again, during that period, we worked through 
the Pakistani government to achieve our aims, and in fact, they 
were our main sort of conduit to the tribes in those days. I 
think the British had a long history in Pakistan and they also, 
I think, did not feel themselves to be experts in the Tribal 
Areas, which were even then an unsettled, relatively lawless 
area.
    But your question basically is who should we be addressing 
first.
    Senator Carper. Yes.
    Mr. Camp. My answer is we have to focus on all of those 
groups who pose a threat to our coalition forces across the 
board in Afghanistan.
    Senator Carper. And among those, who would be first?
    Mr. Camp. Well, al Qaeda certainly is target No. 1 in my 
book.
    Senator Carper. All right. Some analysts argue that the 
Pakistani military remains wedded to a conventional war 
strategy and we are accused in this country of always fighting 
the last war and maybe not the next war. But apparently it 
remains focused on figuring out how to fight a conventional war 
with India and it has been slow to reorient itself toward 
counterinsurgency planning, which we feel is more relevant 
today. To what extent might this be a problem in the context of 
our Nation's interest in the region? And second, how has U.S. 
military assistance sufficiently strengthened its 
counterterrorism capabilities?
    Mr. Camp. The Pakistani military is a large and 
professional institution with a long and storied history. They 
have, in fact, traditionally focused most of their effort on 
their Eastern border, that is to say their border with India. 
They are developing a counterterrorism force. One important way 
in which we are helping is our Foreign Military Financing, 
which is, in fact, focused on counterterrorism goals and it is 
going to items like communications, radios and the like, TOW 
missiles and things that are used for counterterrorism. In 
fact, the Congress has mandated, in 2008, that FMF should be 
used for counterterrorism purposes and that is what is 
happening.
    Senator Carper. In our negotiations with the new leaders of 
Pakistan, the democratically-elected leaders of Pakistan, do 
those discussions include what are their military priorities in 
terms of funding and how are those consistent with our greater 
interest in funding counterterrorism capabilities?
    Mr. Camp. Yes. We have very broad discussions on both the 
civilian side and the military side about priorities and about 
how our assistance can be used, and certainly Pakistan 
understands very well what our concerns are and certainly 
understands Congressional restrictions on the use of FMF 
funding, which is something that is important, as well.
    Senator Carper. All right, thanks. Dr. Coburn.
    Senator Coburn. Just to follow up, in the self-interest of 
Pakistan, if we weren't involved right now, would they be 
seeing that the Northwest Territories were a significant 
problem for them?
    Mr. Camp. I believe that they recognize that the areas of 
the frontier are a problem for them, as well, unless that area 
can be brought under Federal control, and I will give you one 
very good example, and that is that the assassination of 
Benazir Bhutto last December is generally acknowledged to have 
been carried out by a member of the Masud tribe located in 
Waziristan. That in itself is an indication of the threat to 
Pakistan itself from the Tribal Areas, and certainly the number 
of suicide bombings that Pakistan has seen in its major cities 
is another example of the threat that is posed.
    Senator Coburn. So they have every indication in their own 
self-interest to try to decrease the lawlessness, bring order 
to the Northwest Territories?
    Mr. Camp. And they have been very clear about that, yes, 
sir.
    Senator Coburn. Some of the critics of the FATA development 
strategy say the timeline for the strategy to work is 10 to 15 
years. We talked a minute ago about benchmarks, but how are 
they wrong? What do you expect to see 2 or 3 years from now in 
an ideal world if everything that you all were doing was 
working appropriately? Describe the situation as you believe it 
should be if we were 100 percent effective in carrying out our 
aims through the State Department with the dollars that are 
following.
    Mr. Camp. Well, we are asking for something like $200 
million per year for training and equipping of the Frontier 
Corps. This is a substantial amount of money and this will 
train, I would say, several thousand members of the Frontier 
Corps every year. That is progress.
    Now, we have to acknowledge that, in fact, this is not a 
short-term process, and I think, in fact, Chairman Mullen was 
quoted just the other day as saying this will not be over 
within a couple of years. I think that we have to view this as 
a process and every year that we make the Frontier Corps more 
capable, we are helping Pakistan and we are helping ourselves.
    Senator Coburn. OK. How often are U.S. AID, the State 
Department, and the Department of Defense required to report on 
the implementation of the FATA development strategy?
    Mr. Camp. I am not sure there is any formal reporting 
requirement on that strategy for Congress, but certainly we are 
prepared to come and brief on it at any time----
    Senator Coburn. Well, I am not talking about the Congress. 
How about Condoleezza Rice? Does she get a report from U.S. AID 
on the progress?
    Mr. Camp. Actually, our embassy in Islamabad sends a 
report, I think it is virtually every week, on what is 
happening in the FATA and our development strategy and our 
security strategy there, and that, of course, is available to 
the Secretary and we keep her posted, certainly.
    Senator Coburn. OK. I am going to have some other questions 
to submit for the record. One of the things that we saw in 
Afghanistan is that we used external contractors to measure 
performance of other contractors, and given the security 
problems within Pakistan, especially in Waziristan and the FATA 
area, I assume that we are going to be doing the same thing 
again. How do we know that the contractors that we hire to 
oversee the contractors that we have paid to accomplish things 
are reliable if we don't have boots on the ground to check it 
ourselves?
    Mr. Camp. Well, I would say, first of all, Senator, that 
Pakistan has some advantages over Afghanistan in that it is a 
much more, how shall I say, developed society. Pakistan itself 
carries out rather detailed surveys of the things you 
described. We talked about benchmarks before--literacy, 
household----
    Senator Coburn. In this area?
    Mr. Camp. Throughout Pakistan.
    Senator Coburn. Including Waziristan and the Northwest 
area?
    Mr. Camp. I think they probably have the same difficulties 
that we would in gathering detailed statistics, but yes, in 
principle, they collect on the whole country.
    Senator Coburn. The whole point I am getting at, I don't 
want us to have a hearing 2 years from now and discover another 
$3 billion blown down the tube because we are spending money in 
an effort to help a country and we are not doing good follow-up 
and oversight to make sure that the money was actually spent on 
the people we intended it to help, and I guess that is a 
question.
    Reassure me that we have some process in place so that we 
know if we are going to spend $750 million, it is actually 
going to help the people of the area and we are going to be 
able to confirm that it did. How are we going to know that? 
That is my problem. I don't disagree with the strategy. It is 
how do you measure it and how do you know if we are getting 
value? How does the American taxpayer know the $750 million 
actually bought $750 million worth of stuff?
    Mr. Camp. I guess I would come back to the fact that U.S. 
AID has very strict procedures and processes that they are 
required to carry out.
    Senator Coburn. No, they don't. We have had hearings here. 
They don't. They did not carry them out in Afghanistan. They 
did not.
    [Crowd discourse.]
    Mr. Camp. Senator, as the FATA becomes more settled, as it 
becomes more secure, and that is our goal, we will have greater 
access. We as Americans, we as contractors, and as NGOs, will 
have greater access to the area to verify on the ground what is 
being done. I think if you go to Peshawar and get a briefing 
on, for instance, the kinds of things that our Office of 
Transition Initiatives is doing, you will see that, in fact, we 
are verifying--to give you an example, the placement of mini-
hydroelectric projects in some villages, things like that. We 
can verify. We can take pictures. We can come back and say, 
this is in such-and-such a village. And that is some of the 
verification we can----
    Senator Coburn. I plan on going there in the near term and 
what I would like for you to do is, after you leave here, 
answer in a way that gives us some assurance that we are not 
going to see a repeat of some of the failures. That is not a 
reflection on the people, it is a reflection on the system. We 
didn't do a good job of being good stewards as we invested in 
many of the projects. As a matter of fact, we got pictures from 
the Afghani government about the schoolhouses that weren't 
built that were paid for. We have got a picture of the slabs 
that were poured but we didn't ever get the school, but we paid 
for the school.
    So all I am saying is, please answer back in a formal way 
to give me some assurance. We just had staff over there and 
visiting with U.S. AID, and I have to tell you, based on my 
staff report, I do not have the feeling that we have any 
metrics or real way to know whether or not where that money is 
going to. It is just a concern and I want you all thinking 
about how we address that, if you would.
    Mr. Camp. We will get back to you on that, Senator. 
Certainly.
    Senator Coburn. Thank you.
    Senator Carper. Before we release you, I just want to 
conclude by saying I have approached this hearing in a belief 
that for a number of years, we have been wedded to a Musharraf 
policy and that it is important for us to pivot now and to 
develop a Pakistan policy, and I am encouraged that we are 
beginning to move in that direction and it is evident that we 
need to continue to do so and maybe to accelerate that 
distance.
    We have at least three major concerns for me, and one of 
those is the safety and the potential success for our troops 
and allied troops in Afghanistan as they attempt to help 
stabilize the democratically-elected government and to enable 
them to be successful.
    A very grave concern I have is with respect to those 
nuclear weapons that are in Pakistan and which could fall in 
the hands of people who would use one or more of them to do 
harm to any number of people, including to us.
    And finally, just feeling concern for the Pakistani people 
that the potential that they may face for a better day, a 
better future, if their latest effort to put in place a 
democratically-elected government, to make sure that reaches 
its full potential. Those are at least three things that we 
have in mind as we go forward.
    We appreciate your testimony here today. We would ask that 
you respond for any follow-up questions that Dr. Coburn and 
myself or others would provide. Dr. Coburn.
    Senator Coburn. I just would ask unanimous consent that I 
am going to have questions for the other witnesses. I cannot 
stay, and if I could have those submitted for the record, I 
would appreciate it.
    Senator Carper. We spoke to the other witnesses before. 
They said they would prefer not to----
    Senator Coburn. They would prefer not to answer my 
questions? [Laughter.]
    Senator Carper. They said, anything to enable us to avoid 
answering them in person. We will take whatever he has in 
writing. No, we would be happy to do that, without objection.
    All right, Mr. Camp.
    Mr. Camp. Thank you.
    Senator Carper. Thank you so much for joining us today, and 
we will invite our second panel to join us, please.
    [Crowd discourse.]
    Senator Carper. I would just ask that our guests continue 
to be good guests. We appreciate everybody being here, but we 
would like for our guests to remain seated and just to behave 
with the appropriate decorum, please.
    [Crowd discourse.]
    Senator Carper. I would again ask our guests to please be 
seated and allow us to proceed. Thank you very much.
    [Crowd discourse.]
    Senator Carper. I would ask our guests please to--thank you 
very much.
    [Crowd discourse.]
    Senator Carper. I am going to go ahead and begin our 
introduction of our second panel. We are led off by Alan 
Kronstadt.
    Mr. Kronstadt. Yes.
    Senator Carper. He is a specialist with the Foreign 
Affairs, Defense, and Trade Division of the Congressional 
Research Service, where since 2002, he has researched and 
written on U.S. relations with India, with Pakistan, and Sri 
Lanka for Members of Congress and our staffs. I understand he 
was previously a lecturer at the University of Southern 
California in Los Angeles and worked for nearly two decades as 
an analyst of U.S. foreign policy and international security 
and have published a number of journal articles and book 
chapters.
    We thank you for the time you spent with our staff on this 
hearing, and thanks also to Paul Kerr, who I believe is here 
with you today, for preparing my staff, in their recent visit 
to Pakistan.
    Second, Lisa Curtis. Ms. Curtis is a Senior Research Fellow 
at the Heritage Foundation, where you focus primarily, I am 
told, on India, Pakistan, and Afghanistan. Previously, you have 
worked on the Senate Foreign Relations Committee as a 
professional staff member, handling South Asia for a fellow 
named Senator Lugar--a good man. From 2001 to 2003, you served 
as Senior Advisor in the State Department's South Asia Bureau, 
where you advised the Assistant Secretary on India-Pakistani 
relations. We are lucky that you are here and we appreciate 
your being here and look forward to your testimony.
    Dr. Stephen Cohen joined The Brookings Institution as a 
Senior Fellow in Foreign Policy Studies in 1998 after a career 
as a professor of political science and history at the 
University of Illinois, in Champaign?
    Mr. Cohen. Correct.
    Senator Carper. All right. In 2004, he was named by the 
World Affairs Councils of America as one of America's 500 most 
influential people. That is a list I have yet to crack. Dr. 
Cohen is the author and co-author and editor of over 12 books, 
mostly on South Asian security issues, and you have consulted 
for numerous foundations and government agencies and were a 
member of the State Department's Policy and Planning Staff from 
1985 to 1987. Currently, a member of the National Academy of 
Sciences Committee on International Security and Arms Control 
and a founder of several arms control and security-related 
institutions in the United States and South Asia.
    And finally, Michael Krepon, founder of the Henry L. 
Stimson Center, a Washington-based NGO focusing on security 
issues. He is also a diplomatic scholar at the University of 
Virginia. Your area of expertise, I am told, includes space and 
security and nuclear-related issues and regional expertise in 
South Asia. Previously, I understand that Mr. Krepon served 
under President Jimmy Carter at the U.S. Arms Control and 
Disarmament Agency in the State Department. He has worked at 
the Carnegie Endowment for International Peace on Capitol Hill 
handling Armed Services and Defense appropriations matters and 
has authored numerous books. I think you have a new book coming 
out, don't you, called Better Safe Than Sorry: The Ironies of 
Living With the Bomb.
    We really want to thank you all for coming today. We will 
start off, if I may, with Alan Kronstadt. Your entire testimony 
will be made a part of the record. If you would summarize for 
us, that would be fine. Five or so minutes would be good.
    Please proceed. Thank you.

 TESTIMONY OF K. ALAN KRONSTADT,\1\ SPECIALIST IN SOUTH ASIAN 
  FOREIGN AFFAIRS, DEFENSE AND TRADE DIVISION, CONGRESSIONAL 
                        RESEARCH SERVICE

    Mr. Kronstadt. Thank you for this opportunity to address 
the U.S.-Pakistan strategic relationship.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kronstadt appears in the Appendix 
on page 67.
---------------------------------------------------------------------------
    While not without success, U.S. policies toward Pakistan 
since 2001 have largely failed to neutralize anti-Western 
militants and reduce religious extremism within Pakistan, in 
turn hindering efforts to stabilize neighboring Afghanistan. 
However, Pakistan's recent upheavals may offer an opportunity 
to alter the nature of this bilateral relationship. The 2008 
elections indicate Pakistanis are moderates not driven by 
extreme militant religious world views.
    Still, anti-American sentiments are widespread in Pakistan, 
apparently rooted in a general disapproval of U.S. global 
policies and a specific resentment of U.S. policy toward 
Pakistan itself. Most observers agree that reducing these 
negative perceptions will be necessary to advance U.S. 
interests. Many argue that this goal is overshadowed by 
shorter-term policies that may fuel the very distrust the 
United States seeks to overcome.
    The salience of mutual trust and respect, not only between 
governments but between peoples, is often understated in 
assessments of the U.S.-Pakistan strategic relationship. In the 
political realm, Pakistanis resent perceived U.S. meddling in 
their country's internal politics. In the security realm, many 
Pakistanis believe the United States relies too heavily on 
military efforts, thereby damaging Pakistan's legitimate 
interests in sovereignty.
    Given President Musharraf's status as a moderate pro-
Western ally of the United States, his political diminishment 
and potentially ignominious exit from power complicates U.S. 
policymaking, yet these complications may be seen as 
opportunities for U.S. policy makers. Respect of and active 
support for Pakistan's democratic institutions and rule of law 
are explicit non-controversial U.S. policies. There is, 
however, vigorous debate over whether such policies have been 
manifest in both words and deeds.
    The Pakistani Nation was traumatized by a huge increase in 
domestic religiously-motivated violence in 2007, with more 
lives lost to Islamist militancy than in the previous 6 years 
combined. Concurrently, al Qaeda and affiliated groups have 
resurfaced on Pakistani territory and continue to plot anti-
Western terrorist attacks. Senior U.S. officials, including 
President Bush, believe possible future attacks on the U.S. 
homeland likely would originate from the Pakistan-Afghanistan 
border region.
    For the first time in many years, the United States must 
deal with a political structure in Islamabad that has 
fundamentally differing views on how to combat religious 
extremism. Pakistan's new civilian leaders reengaging efforts 
at negotiation with religious extremists claim that military 
confrontation has allowed militants to become stronger. Most 
Pakistanis, though not all, appear to welcome this policy 
shift.
    A key metric for the United States is preventing pro-
Taliban militants from using tribal regions to plan and launch 
attacks. So far, the indicators are not encouraging. Cross-
border raids in Afghanistan reportedly are up significantly in 
recent months and Pakistani officials show signs of diminished 
concern about this issue, perhaps reflecting Pakistani dissent 
from the multi-national strategy being pursued in Afghanistan. 
Myriad analysts counsel U.S. patience. Many insist that only by 
bringing Pakistan's Tribal Areas under the full writ of the 
state and facilitating major economic development there can the 
FATA region problem be solved.
    Decisionmakers in Washington face the difficult task of 
supporting a holistic long-term Pakistani approach to its 
militancy problem while making clear to Islamabad's leaders 
that international jihadis represent a threat that should be 
neutralized in the near term. Reported Predator strikes on 
Pakistani territory may kill al Qaeda operatives, but often 
take civilian lives, as well. Pakistani leaders strongly 
condemn such attacks, reflecting a widely-held Pakistani view 
that the United States myopically pursues its own national 
interests.
    Recognition of Pakistan's legitimate security concerns and 
interests regarding Afghanistan and active support for warmer 
Pakistan-Afghanistan relations are also explicit non-
controversial U.S. policies. Yet on this topic, too, vigorous 
debate exists on whether the United States is genuinely 
committed to a long-term role in the region that will address 
Pakistani concerns.
    U.S. public diplomacy gains following the 2005 earthquake 
were measurable, but have since receded. By one accounting, 86 
percent of Pakistanis believe that weakening and dividing the 
Muslim world is a U.S. goal. A scant 9 percent thought Pakistan 
should cooperate with the United States in its so-called war on 
terror.
    These findings may give pause to any observer and serve as 
a stark reminder that the national interest and the human 
interest do not always correspond in the minds of ordinary 
citizens. U.S. interlocutors cannot force upon Pakistanis the 
notion that the fight against religious militancy is in their 
own best interests. Weakening and dividing the Muslim world is 
not a goal of U.S. foreign policy, as a huge majority of 
Pakistanis appear to believe. To the extent these 
misperceptions exist, they are likely to create formidable 
obstacles to a genuine mutually-held trust and respect that 
could benefit the governments and peoples of both countries.
    Mr. Chairman, this concludes my testimony. I stand ready to 
answer any questions you may have.
    Senator Carper. Great. Mr. Kronstadt, thank you very much.
    Ms. Curtis, I understand that you come late to the game 
because we invited you late. We are just delighted that you 
were willing to make time in your schedule to come and testify. 
I didn't have a chance to read your testimony, so this will be 
the first time I have heard it, but I very much look forward to 
it and thank you so much for joining us.

  TESTIMONY OF LISA CURTIS,\1\ SENIOR RESEARCH FELLOW, ASIAN 
            STUDIES CENTER, THE HERITAGE FOUNDATION

    Ms. Curtis. OK. Well, thank you very much for having me 
here, Mr. Chairman. It is very much an honor. I will focus my 
remarks on mainly containing the terrorist threat in Pakistan, 
which of course is critical to the future of Pakistan as well 
as global security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Curtis appears in the Appendix on 
page 77.
---------------------------------------------------------------------------
    Despite a successful election 4 months ago, Pakistan's 
political and security situation remains highly unstable and 
demands close attention from U.S. policy makers and 
legislators. The power struggle at the center among the three 
main political parties, Asif Ali Zardari, Nawaz Sharif, and 
President Musharraf--Asif Ali Zardari leads the Pakistan 
People's Party, the main leader in the coalition government; 
Nawaz Sharif leads the Pakistan Muslim League Nawaz faction, 
which is the junior coalition partner in the coalition 
government. There is a power struggle between these three 
leaders that is distracting the new government from coping with 
the grave economic and terrorism challenges that are facing the 
country.
    A revived lawyers' movement to restore judges deposed by 
President Musharraf last year is adding to the political 
uncertainty, and I understand tens of thousands of people are 
en route from Lahore to Islamabad as we speak, so just to give 
you a sense for the political uncertainty in Islamabad at the 
moment.
    But perhaps the most worrisome trend in Pakistan is the 
advance of Taliban militants in the Northwest part of the 
country and the government's lack of a strategic approach to 
roll back the rising extremist threat. The United States and 
Pakistan share the same objective of uprooting terrorism from 
Pakistan, but they have not yet developed and agreed upon a 
comprehensive joint plan to achieve this goal over the long 
term.
    Tuesday night's air strike that killed 11 Pakistani 
security forces along the Afghan border will likely strain 
U.S.-Pakistan relations and create opposition within the lower 
ranks of the army and the Pashtun paramilitary Frontier Corps 
to any further cooperation with the United States. The incident 
points to the challenges of fighting an effective campaign 
against insurgents who cross freely back and forth along a 
porous border and the confusion that prevails when coalition 
forces can operate aggressively on one side of the border, but 
must rely on their Pakistani counterparts to control the other 
side. Mostly, the incident highlights the need to improve 
communication between the coalition, Afghan, and Pakistani 
forces along the border.
    In September 2006, Pakistani President Musharraf pursued a 
peace deal with militants in the North Waziristan agency of the 
Tribal Areas. The deal failed by all accounts. Within 2 months, 
cross-border attacks against coalition forces increased by 200 
percent, and by the summer of 2007, senior U.S. intelligence 
officials declared that the Pakistani peace deal had allowed 
the region to develop into an al Qaeda stronghold. The 
extremists also took advantage of the decreased military 
pressure and instituted strict Islamic edicts in the region, 
such as closing down girls' schools, barber shops, and video 
stores, demonstrating that they could challenge the writ of the 
government.
    The Pakistani government has once again embarked on a new 
set of peace deals in the region. The government hopes that 
negotiations will separate tribal leaders from the extremists, 
but the problem is the tribal leaders do not have the 
wherewithal to confront the extremists. The Pakistani 
government says that it needs time for the negotiations to bear 
fruit. The danger lies in promoting a negotiating process that 
legitimizes the extremists and increases their influence.
    During a recent trip to Pakistan, I was struck by the level 
of concern expressed about the situation in the Northwest 
Frontier Province by the people of that region. Pakistanis 
understand that the Taliban militants are competing for 
political power with the Pakistani State. They do not support 
the agenda of the militants, but they were pessimistic that the 
government was capable of successfully countering their growing 
influence.
    The militants almost certainly will use the current law to 
strengthen their ability to fight coalition forces in 
Afghanistan. The United States must encourage Pakistan to go 
back on the offensive with full U.S. support. But military 
operations alone will not uproot the terrorists' safe haven in 
the Tribal Areas, which could take several years. It will 
require a strategic approach that also relies heavily on 
economic development and investment in the region.
    In addition to implementing a large-scale economic 
development program in the FATA, the United States should move 
forward with Reconstruction Opportunity Zones (ROZs), as they 
are referred to, legislation that was introduced in the U.S. 
Senate on March 13, 2008. The ROZs are meant to encourage 
investment near the underdeveloped Tribal Areas by permitting 
certain products produced there to enter the U.S. duty-free.
    And I just want to add, during my recent visit to Pakistan, 
there was a lot of skepticism because this initiative was 
introduced several years ago. President Bush announced this in 
March 2006, and here we are 2 years later and it is still not 
implemented. So I just want to make the point of how important 
it is to keep the faith of the Pakistanis that we really are 
truly interested in contributing to the development of this 
region.
    The United States should also speed up its plans to provide 
counterinsurgency training to Pakistan's paramilitary troops 
stationed in the FATA. The training of Pakistan's Frontier 
Corps, who come from the region and are familiar with the 
culture, is scheduled to begin this summer, but it really 
should have started long ago.
    Washington should also increase efforts to encourage peace 
building and greater military-to-military cooperation between 
Afghanistan and Pakistan. Pakistani initiatives to bring 
political reform to the FATA could actually strengthen 
Islamabad's claim to the region and help dispel any controversy 
between Kabul and Islamabad on the status of their shared 
border.
    The United States should also make a quiet yet focused 
diplomatic effort to prod the India-Pakistan peace process. 
Substantive movement on Kashmir is needed to demonstrate that 
the two countries are truly putting their past behind them and 
moving toward a new era of peace and cooperation in South Asia.
    Finally, the United States should fully support the 
democratically-elected coalition government. Washington should 
avoid being viewed as meddling in Pakistani internal politics, 
including working toward the preservation of President 
Musharraf, whose role and influence are declining in Pakistan, 
which I think many of the witnesses have indicated. A policy of 
clinging to Musharraf in the face of Pakistani opposition will 
only increase hostility toward the United States from the 
broader population and contribute to greater instability within 
the system. Maintenance of the current coalition government 
offers the best hope for stabilizing Pakistan as it copes with 
the economic and terrorism challenges that threaten political 
unrest.
    That concludes my statement. Thank you.
    Senator Carper. Thank you very much. It was worth waiting 
for. Thanks so much.
    Mr. Krepon, you are recognized. Please proceed.

   TESTIMONY OF MICHAEL KREPON,\1\ CO-FOUNDER, THE HENRY L. 
                         STIMSON CENTER

    Mr. Krepon. Thank you. Mr. Chairman, thanks for holding 
this hearing. You have asked me to focus on the nuclear weapons 
issue----
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Krepon appears in the Appendix on 
page 84.
---------------------------------------------------------------------------
    Senator Carper. Yes, sir.
    Mr. Krepon [continuing]. Which I am going to do. The first 
question, how safe and secure are Pakistan's nuclear weapons? 
Nobody knows for sure how the current system, which is an 
improved system, will work under circumstances of great stress.
    Senator Carper. Excuse me for interrupting, but when you 
say an improved system, improved how recently?
    Mr. Krepon. Well, there was a time, regrettably, when A.Q. 
Khan, who ran one of the major nuclear laboratories, was in 
charge of security at that lab. That was not a good idea.
    Senator Carper. No.
    Mr. Krepon. But that has changed and now the Pakistan army 
has full control over the security system. It has full control 
over the nuclear weapons system within the country, from soup 
to nuts.
    But the improvements that they have made, thankfully, have 
not been tested under periods of prolonged great stress. If 
there is great turbulence within the country, and there are 
possibilities of that because of this triangular competition 
between the political big-wig, or big-wigs, the current 
president of the country, and the army chief, that triangular 
system of control, there is jockeying there all the time. But 
it could get a lot worse.
    A period of prolonged political turbulence where the 
country's problems grow and divisions within the country grow, 
that will also be reflected in the Pakistan army. The Pakistan 
army is not some foreign culture that has been imposed on 
Pakistan. It reflects the country. And so divisions and 
grievances, when they grow within the country, are also going 
to grow within the army.
    And the biggest, or one of the biggest threats to the 
safety and security of nuclear weapons in Pakistan is a 
breakdown of unity of command within the army. So unity of 
command is a hierarchical institution. The chief gives orders. 
The orders are followed. With a breakdown of command, orders 
don't get followed. So I think that is something to focus on.
    We want to prevent a prolonged period of instability in 
governing this country and there is just so much we can do. Our 
policies aren't determinative, but they do influence outcomes. 
So worry about political instability within the country.
    I also worry about the crisis with India because whenever 
there is a crisis with India, then nuclear weapons which are 
usually in repose, and they are most safely guarded in repose, 
they move around. Some portion of their nuclear arsenal, the 
launchers and the weapons, move when there is a period of 
significant crisis. The reasons are simple. People can look 
down on this country by means of satellites and get the 
geographical coordinates of where the nuclear storage sites 
are, where the missile bases are, where the air bases are. So 
all of these are targetable, so you have got to put something 
in motion. When you put something in motion in a crisis, then 
you are more susceptible to insider threats and you are more 
susceptible to accidents, and if a crisis turns into a limited 
war, then, of course, all of these concerns really grow 
exponentially.
    So what can the United States do? We can offer assistance 
for nuclear security. The Pakistanis, there is this huge trust 
deficit with the United States and every time there is an 
incident like yesterday, the trust deficit grows. So they are 
not going to let us get hands on their crown jewels. They are 
going to keep us at a safe distance.
    Support that can be provided from a safe distance, like our 
best practices, our lessons learned--which, by the way, we have 
to relearn about nuclear safety and security. But if we can 
offer assistance that is at a safe distance, chances are, and 
if it is kept with a low profile, the Pakistan army will say 
yes, as long as they can keep us at arm's length. Those are 
small things. If we offer big assistance programs for nuclear 
security, it may make doing smaller things even harder.
    And, of course, the other two things, because of my 
worries, we can do crisis management if there is a problem with 
India. Even better, we could do peacemaking, help with 
peacemaking in a low-profile way. We haven't done much of that, 
unfortunately.
    I agree that these assistance packages are required to help 
reorient the Pakistan army, Frontier Corps, economic 
development. You will be sorely tempted to walk away from these 
programs because there is going to be so much friction between 
us and Pakistan in so many specific cases. But disengagement 
doesn't help. Thank you.
    Senator Carper. Thank you for an excellent statement and 
for responding to the questions that we asked you to respond 
to. We are glad you accepted our invitation and thank you for 
your testimony.
    Dr. Cohen, you are batting cleanup here. Thank you. Please 
proceed.

TESTIMONY OF STEPHEN P. COHEN,\1\ SENIOR FELLOW, FOREIGN POLICY 
                 STUDIES, BROOKINGS INSTITUTION

    Mr. Cohen. Thank you, Senator Carper. I am honored to be 
invited to again speak and offer some advice to the Senate.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cohen appears in the Appendix on 
page 92.
---------------------------------------------------------------------------
    Let me begin my remarks by making two general observations. 
Somebody said earlier these hearings are timely, but they are 
timely because Pakistan is in a protracted crisis that is 
measured in decades, not just years. So Pakistan is going to be 
with us in one form or another for a very long time. It is not 
just a sudden event that is taking place.
    Second, there is also a great danger of wishful thinking 
regarding Pakistan, projecting on Pakistan our desires and our 
belief that we have found leadership or a program that actually 
works, and, of course, this is sometimes played back to us, 
ratifying our own imagination.
    When I worked for George Schultz for a couple of years, he 
said to us once, hope is not a policy, so I think we have to 
bear that in mind with regard to Pakistan. I hope that this and 
that will happen in Pakistan, but I think we also have to take 
a realistic assessment of what is actually going on.
    I will try and summarize some of this because Mr. Krepon 
has said a few things already, but I think there are four 
nuclear-related dangers we have to worry about in this 
Administration and the next and perhaps the one after that. A 
small but real possibility that the next India-Pakistan crisis 
could lead to escalation to nuclear use.
    Second, Pakistan may decide as a matter of state policy--
this is looking ahead a couple of years--to extend a nuclear 
umbrella or engage in nuclear sharing with one or more Middle 
Eastern States, especially if Iran acquires a nuclear device.
    Third, there is a hard-to-quantify risk of nuclear theft in 
Pakistan. Mr. Krepon has talked about that. I won't repeat it.
    And finally, there is some small chance that should 
Pakistan unravel--again, it has once already--that its nuclear 
assets will be seized by remnant elements of the army for 
political, strategic, or personal purposes.
    While nuclear proliferation or nuclear theft should not be 
the sole or even the determining element in a relationship with 
Pakistan, some of these are frightening scenarios. Our policy 
paradox is that we want many things from Pakistan but that we 
cannot directly address Pakistan's inability to deliver. We 
want Pakistan to cooperate on terrorism. We want it to 
normalize with India. We want it to control its nuclear 
weapons. We don't want it to proliferate. And we want it to 
transform its domestic order by normalizing the FATA.
    Even if Pakistanis wanted to do some or all of these 
things, it is not certain that they have the capability to do 
them. So no matter how much money we pour into Pakistan, we 
cannot expect full compliance. We must pick and choose among 
our policy goals.
    In the case of nuclear security, we should go beyond 
encouraging better safeguards. Within the limits of American 
law, we are providing technologies to Pakistan and systems to 
Pakistan to help secure their systems and it may be that China 
has also done so. I certainly hope they are doing that.
    Beyond this, we should consider a criteria-based nuclear 
deal with Pakistan, somewhat different than the one we offered 
to India, which I support, but one in which Pakistan has to 
meet certain criteria to get assistance as a way of encouraging 
them to limit and secure their existing nuclear weapons. As far 
as I can see, Pakistan is simply going to be building nuclear 
weapons in large numbers as fast as they can indefinitely, 
something that is not in our interest and I don't think it is 
in their interest.
    Pakistan could receive support for a civilian nuclear 
program in exchange for greater assurances regarding the 
security of its nuclear assets and technology and transparency 
regarding past leakages.
    Finally, we should marginally increase our engagement in 
the India-Pakistan relationship--our involvement in the India-
Pakistan relationship, as Mr. Krepon has said. The Pakistan 
army still regards India as its main threat and nuclear weapons 
as its main defense. We need to address their chief incentive 
to acquire more and bigger nuclear weapons. The reason Pakistan 
is engaged in Afghanistan or allows individuals based in 
Pakistan to become involved in Afghanistan is not because they 
have ambitions of expansion themselves. They do not want India 
to fill the vacuum in Afghanistan. So it is essentially a 
continuation of the India-Pakistan rivalry to Afghanistan that 
is part of the problem.
    Short-term measures regarding----
    Senator Carper. Excuse me, Doctor. Just say that last 
sentence again.
    Mr. Cohen. Pakistani strategists see Afghanistan as a 
vulnerable spot because of Indian engagement in Afghanistan, 
and historically there has been an Afghan-Indian alliance or 
relationship because both regarded Pakistan as their major 
threat. So, in a sense, we have to understand this realpolitik 
balance of power issue. From a Pakistani military point of 
view, they do not want to see India establish themselves in 
Afghanistan, so that is why our Pakistan-Afghanistan policy, 
our Pakistan and our Afghan policies and our India policy are 
linked at some level, at a strategic level, and we must keep 
that in mind.
    Short-term measures regarding terrorism and nuclear 
technology should not get in the way of long-term strategies to 
stabilize Pakistan. We should devote as much attention to 
shoring up Pakistan's broken institutions and helping 
Pakistanis resolve their permanent domestic critical crises as 
we devote to terrorism and nuclear issues, and I think I agree 
with the rest of the panelists on this point. If we fail to do 
the latter--the former, the latter would certainly become more 
acute. If we don't address Pakistan's coherence as a state, it 
will be a bigger problem regarding terrorism and nuclear 
weapons.
    Fortunately, there are other states that share this 
interest with us, that want to see a stable Pakistan. These 
include Saudi Arabia, China, India, Afghanistan, the major 
European powers, and Japan. The Chinese and the Indians, in 
particular, are concerned about Pakistan becoming a radical 
Islamist State. Of course, Saudi, you could look at the Saudi 
view on that several ways, but they share with us a concern 
that Pakistan not be an export center for radical Islamic 
behavior. In a sense, we have some common interest with the 
Chinese and the Indians regarding Pakistan's stability and 
normalcy.
    Our Pakistan policy should, therefore, be framed by a 
regional policy that seeks to stabilize relations between 
Pakistan and its neighbors, especially India and Afghanistan, 
but also Iran. We also need to make our support more effective. 
I won't go into the details. I agree with what others have said 
about this.
    Finally, I think we should be aware that Pakistan may yet 
fail comprehensively. The state has failed in bits and pieces 
over the last 25 years in civil war, separatism, economic 
collapse, and the rise of a truly authoritarian leader are all 
possible futures for Pakistan. This is the core argument of the 
book I published in 2004 and I think I would stand by 
everything I wrote there. It is still a possible future for 
Pakistan.
    Pakistan should not be written off as a failed state. It is 
not a failed state. It has failed in bits and pieces. But if it 
cannot take advantage of this second-last chance, then its 
future will be grim, and you and other American policymakers 
should not be taken by surprise.
    That concludes my testimony. I would be pleased to respond 
to questions.
    Senator Carper. Dr. Cohen, thank you. Thank you for your 
testimony.
    I am reminded as I listened to each of you testify, 
reminded of the words of Thomas Edison, who used to say that 
sometimes people miss out on opportunity because it comes along 
wearing overalls and is disguised and looks a lot like work. 
There is a potential for great calamity here, nuclear weapons 
falling into the wrong hands, the Taliban, al Qaeda continue to 
find refuge and create mischief both in Pakistan and 
Afghanistan, danger to our troops in Afghanistan. But there is 
also real potential here, maybe for getting it right. It 
doesn't say it is going to be easy.
    One of the best ways for me to learn, aside from very 
informative panels like the ones that are gathered here, is to 
actually go to a country to visit that country, to talk to the 
folks who are involved, our people as well as the folks who 
live in those countries. Senator Levin has just returned, I 
believe, from that part of the world. I am delighted that he is 
here. As you know, he Chairs the Armed Services Committee and 
is a very senior member of this Committee, as well. Senator 
Levin, you are recognized for as much time as you wish to 
consume.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Senator Carper, so much, and 
thanks for holding this hearing. As you mentioned, I just 
returned with Senator Casey from a very brief visit but a very 
useful visit to Pakistan and Afghanistan. I think I changed my 
mind about a number of things just in talking to those leaders 
and talking to our military people during those 3 days. I 
learned a lot about the border and the problem that border 
creates for Afghanistan, for our troops in Afghanistan because 
of the flow of Taliban across that border and other terrorist 
forces that emanate from Pakistan, where they really have safe 
havens in a number of areas of Pakistan.
    The fundamental question that we grappled with, Senator 
Casey and I, is to what the real intent or attitude of the 
Pakistani government is. Do they really want to stop that flow 
into Afghanistan or not? Some argue, particularly in 
Afghanistan, but some in Pakistan, that if they could buy off 
some of the groups that are violent and persuade them to focus 
their fire on Afghanistan next door, that maybe they can have 
peace at home in Pakistan, and that is a theory which has a lot 
of support, including some very explicit support from some of 
our diplomats in Afghanistan as well as our generals as well as 
the Afghan leadership that has absolutely no confidence in 
Pakistan's either intent or capability to stop those cross-
border movements.
    Now, from a military perspective, there are a lot of issues 
about rules of engagement, what happens when people are being 
fired at on the Afghan side from the Pakistan side. What should 
be the response? The NATO rules of engagement, surprisingly, do 
not even allow a return of fire across a border after they have 
been fired at. That, to me, is a stunning restriction on what 
is common sense military conduct, which is at least go after 
the folks that are firing at you, but NATO has rules of 
engagement that says if that attack comes from across the 
border, you cannot respond across the border, even with fire, 
much less personal activity crossing the border.
    Our rules that we follow in the area that the United States 
is patrolling and has responsibility for militarily, with 
obviously the support of the Afghans, our rules of engagement 
are not that. We will fire back at sources of attack from the 
Pakistani side of the border. But that is a kind of an 
important issue, but a more military technical issue.
    The big issue for us is what is the intent of the Pakistani 
government? What do they really intend to do, either in the 
Tribal Areas or south of the Tribal Areas? These peace 
agreements that are being discussed, we heard a lot of promises 
from the Pakistani leader that those peace agreements would 
have to contain explicit commitments which would be enforceable 
to stop the flow of people crossing the border into Afghanistan 
who intend to attack our troops. We have those assurances that 
come right from the highest sources you can get in Pakistan, 
which are the top elected leaders in Pakistan, including the 
president and the prime minister and the heads of all major 
political parties.
    But then you read about a press conference which is held by 
the head of a tribe whose first name I am afraid I will 
mispronounce, Baitullah Masud. Mr. Masud holds a--he is a very 
militant man who says at his press conference he vows that he 
will continue the jihad in Afghanistan. He has an open press 
conference in Pakistan. Everybody knows where he is. The press 
knows where he is. He makes these vows openly and publicly. He 
is the man who, by the way, many think is responsible for the 
assassination of Benazir Bhutto, and yet he has an open press 
conference in Pakistan.
    So I guess I would ask Ms. Curtis and Mr. Kronstadt this 
question, since our other witnesses are on a different part of 
this subject, but what are, in your judgment, do the Pakistanis 
have the will and have the capability--either or both--of 
stopping these attacks from these safe havens on the Pakistani 
side of the border into Afghanistan where they are creating 
huge problems?
    It is our greatest problem, I believe, in Afghanistan, 
where you have got a national army which is committed to 
defeating the Taliban. Their morale is very high in the Afghan 
army. The capability, at least in terms of intent and will and 
courage and strength of determination, is high in the Afghan 
army. They don't have the military capability yet. But in terms 
of the willpower, it is there. In terms of the fighting 
strength, our military leaders tell us that the Afghan army has 
got this kind of a determination, that they are willing to do 
everything they can inside of Afghanistan to stop terrorist 
attacks relative to the border, going back to that.
    Let me start with you, Ms. Curtis. What is the intent, in 
your judgment, of the Pakistan government in terms of stopping 
these incursions from their soil into Afghanistan?
    Ms. Curtis. Well, let me just start by saying I think it is 
extremely difficult to judge intent, but what I can say is if 
we look at what has happened in Pakistan over the last year, 
literally 50, 60 suicide bombings killing over 1,000 Pakistani 
civilians and security forces, I think clearly Pakistan wants 
to stop the terrorists. It understands the threats to the 
Pakistani State.
    In my opening remarks, I pointed out I was recently in 
Peshawar and it was very clear the people of Peshawar are 
extremely concerned about what is happening. They understand 
that the Taliban militants are competing with the Pakistani 
authorities for political power and they are very alarmed by 
this.
    So I would say that we really need to think about the issue 
of capability, and I understand the recent RAND study that has 
come out that was mentioned earlier about whether or not 
Pakistani services, intelligence services, were actually 
supporting the Taliban. But I would point out, I think some of 
this stems from some media reporting that we saw last year 
talking about Frontier Corps who were allowing Taliban to 
cross, and I would say there is a difference between allowing 
or not being able to intercept because of capability and 
supporting or helping, and we have to keep this in mind. It is 
my understanding that the pickets along the border are often 
made of up to 10 to 20 Frontier Corps troops and they may face 
a band of militants of 50 or more Taliban.
    So I think we need to look at this question, but I 
certainly share your concern and I think it is something we 
need to bring up in a very forthright manner with our Pakistani 
counterparts when we do have these crossings and we do know 
that the Pakistani border posts are not doing their job. We 
need to figure out why and we need to address that issue.
    Senator Levin. We do bring them up forthrightly with the 
Pakistani leaders. Believe me, we were very direct with them on 
this question and they assure us that, it is their intent. They 
are not going to sign any peace agreements which don't have 
explicit language prohibiting it with enforcement mechanisms to 
carry out those commitments.
    But the RAND study that you referred to says something more 
than just people on the border allowing, and I agree with you, 
there is a difference between, a gradation between allowing and 
supporting or assisting. But what the RAND study says is that 
there are a number of instances where Pakistani intelligence 
agents tipped off Taliban forces about the location and 
movement of Afghan and coalition forces, that there was 
actually an affirmative step that was taken, not just passivity 
but tipping off Taliban forces.
    And there is other evidence, by the way. We talked to one 
of our generals there who reported an incident, if I can 
quickly find this, where there were some people who went over 
the border from Pakistan into Afghanistan to assist people 
from--and participated in an incursion from Pakistan military 
into Afghanistan to help them get back safely. It was Senator 
Casey, and I were told by our military commanders of a recent 
incident in which Pakistan Frontier Corps forces sent an 
ambulance in to evacuate wounded militants back across the 
border into Pakistan.
    So these are not just passive actions, failure to act, 
although that is not acceptable, either. These are affirmative 
actions on the part of the intelligence and the part of the 
Frontier Corps people to help militants and to help the Taliban 
inside of Afghanistan.
    And I agree with your distinction, though, Ms. Curtis. I 
don't disagree with that. I am just afraid that there has been 
much more than just passive acceptance.
    Mr. Kronstadt.
    Mr. Kronstadt. Senator, I would, I think, first of all, 
agree with Ms. Curtis's emphasis on the capability or capacity 
question. I think it has become clear to most observers that 
Pakistan's counterinsurgency and counterterrorism efforts have 
been hampered by a number of problems, including equipment, 
training, so forth.
    With regard to what you were just saying about the Frontier 
Corps, I might offer that even what we saw on the news 
yesterday calls attention to the problem of training and 
discipline within that organization. Part of the potential 
benefits of working with the Frontier Corps, it seems, are the 
fact that they are local Pashtun ethnicity, often live in the 
very areas that they are deployed. But there is a potential 
downside to that in terms of concerns about sympathies that 
they may have. It is possible that these concerns could be 
ameliorated by more fully engaging the training and discipline 
of this force and I think that has been a focus.
    With regard to the intent of the government of Pakistan, I 
would call attention first to the fact that it is a very 
difficult region that is being operated in, and very often when 
I converse with Pakistani interlocutors, they will raise the 
issue of our border with Mexico and the difficulties we find 
with securing that border, and then go on to explain that they 
are dealing with a much more difficult terrain and an actual 
division, a Durand Line that was purposefully dividing members 
of the same ethnicity----
    Senator Levin. Yes. The terrain in the north is more 
difficult, but down with the Quetta area, that is not 
particularly difficult terrain. They openly meet in Quetta. 
They have this press conference that I made reference to, Mr. 
Masud. It is an open press conference. He is the guy who is 
threatening. He says the jihad in Afghanistan will continue. 
Now, how do we explain that in terms of intent?
    Mr. Kronstadt. I am certainly not in a position to explain 
that. I will call attention to the fact that Deputy Secretary 
Negroponte himself called for the capture and bringing to 
justice of Baitullah Masud, so I think the U.S. Government's 
position on so-called irreconcilable elements such as Masud are 
clear. I can't explain the apparent public appearance of a 
person like Masud in South Waziristan. But again, it is in a 
Tribal Area and it is useful to separate, as you have done, the 
Balochistan region and the Quetta local region from the Tribal 
Areas, which are operating under a different set of--the 
Pakistani government is operating under a different set of 
constraints there.
    Senator Levin. Mr. Chairman, I don't want to take up time 
beyond my allotted amount. You were nice enough not to give me 
a specific time, but I don't want to abuse your good nature.
    I would just say this in conclusion, I guess. We were 
notified a couple of weeks ago by the Administration that they 
intended to spend $75 million to train and equip the Pakistan 
Frontier Corps. During our recent trip, as I mentioned, we, 
Senator Casey and I, heard from so many officials, Afghan and 
U.S. commanders, about either the failure to prevent activity 
crossing the board by the Pakistan military or actively 
supporting these cross-border attacks, that we are, frankly, 
troubled by whether or not that money is going to be used to 
stop the cross-border incursions into Afghanistan or to be 
training a force which doesn't have the same interest and goals 
that we do.
    And so I would ask, Mr. Chairman, that you insert in the 
record two things here. One would be a trip report of Senator 
Casey and myself on our visit to Pakistan and Afghanistan. It 
is a fairly short report, but it does contain some of the 
questions which you and the witnesses and I have raised.\1\
---------------------------------------------------------------------------
    \1\ The prepared report of Senator Levin and Senator Casey appears 
in the Appendix on page 47.
---------------------------------------------------------------------------
    But I also have a second request, which would be to insert 
a letter which I recently sent to Robert Gates, the Secretary 
of Defense, raising a question about that $75 million.\2\ It is 
not up to us to approve it. We don't have that power with this 
particular expenditure. But I do think we have to make a 
decision fundamentally as to whether or not the folks that we 
are training, equipping, making stronger, have the same goal 
and interest that we do. I don't think we have made that. I 
haven't heard a very strong case being made that we have 
confidence that Frontier Corps, in fact, will have its mission 
and purpose the same one that we do.
---------------------------------------------------------------------------
    \2\ The letter to Robert Gates from Senator Levin appears in the 
Appendix on page 51.
---------------------------------------------------------------------------
    And I think there are real questions about it and I think 
some of Ms. Curtis's earlier testimony about complicated 
motives--these are people who are countrymen. These are people 
who have a similar--they are part of the same tribe and they 
have a--there is no border for them. I don't think they even 
acknowledge a border. It is an artificial line. And I just want 
to make sure that before American taxpayer dollars are spent to 
equip and arm and train folks that they are not going to be 
turned on us and not going to be helping forces that have a 
different interest. So thank you.
    Senator Carper. You bet. Thank you so much for coming and 
for sharing with us your insights, not only from your recent 
visit, but from your years in the Senate and your chairmanship 
of the Armed Services Committee and your role on this 
Committee.
    Senator Levin. Thank you.
    Senator Carper. You bet. What happens to Musharraf? What do 
you see in his future? I would just ask each of you to share 
some thoughts. Mr. Krepon.
    Mr. Krepon. If you look at Pakistani history as closely as 
Mr. Cohen has, I think it is possible to come to the conclusion 
that when a military strongman really messes up in Pakistan, he 
is not part of the clean-up crew. The clean-up is enhanced by 
his departure and retarded if he sticks around. Would you agree 
with that, Mr. Cohen?
    Mr. Cohen. Yes. I think that a key element in this will be 
the army's own views. They will not want to see a former army 
chief disgraced or humiliated in any way, and his major outside 
supporter seems to be the United States, or elements of the 
United States. So I suspect that as our political system 
changes, support for him may diminish--it has diminished 
already--and they will find a graceful way for him to exit 
Pakistan. On the other hand, he may have hopes that some 
dramatic reversal will take place where he will again be seen 
as indispensable. But that will depend on the army. I think the 
army is a critical factor here, and they will not--but above 
all, they will not want to see him humiliated or the army 
humiliated by his humiliation.
    Senator Carper. In some countries, they have a strong chief 
executive. This country is an example of that. Israel has quite 
a different situation with the president as a largely 
ceremonial position. Is that a potential graceful way out of 
this, is for the folks in Pakistan to decide that their 
president should be a largely ceremonial office----
    Mr. Cohen. Well, that is the way the constitution had it, 
until he changed the constitution. And again, if he would be 
willing to revert to such a ceremonial president, that would be 
fine, but he may be waiting around. Certainly the army is 
waiting around for the politicians to fail to come to an 
agreement. So if the politicians cannot again agree, and we are 
talking about the two dominant centrist secular political 
parties of Pakistan, if they cannot come to an agreement as to 
the management and the stability of Pakistan, he will have a 
role, no two ways about it.
    Senator Carper. Who selects the leadership of the military?
    Mr. Krepon. Well, under the current constitution, the 
president chooses, not the prime minister. But this is in play 
now because the new political dispensation has offered some 
major constitutional amendments. The constitution is not a 
settled document in Pakistan.
    Mr. Cohen. That is why I said Pakistan is in a permanent 
state of crisis because there is no agreement on the 
fundamental law of the land, the constitution, and personality 
plays a role, outside powers play a role. We do. The Saudis do. 
The Chinese do. So there is no political coherence in Pakistan, 
or it has lost whatever coherence it did have, and I think we 
can expect this to go on forever, indefinitely.
    Senator Carper. Ms. Curtis.
    Ms. Curtis. Sir, there has been a fundamental political 
change in Pakistan that I am not sure that the Bush 
Administration has fully absorbed. I think the election showed 
that the support for President Musharraf's party, the Pakistan 
Muslim League, KDS and PMLQ, did not do very well. In fact, it 
did a lot worse than people expected. So I think this was one 
indicator that people were not happy with some of the things 
President Musharraf had pursued in the last year, particularly 
the institution of emergency rule, the clamping down on the 
press, throwing thousands of political workers, human rights 
workers, in jail for a certain period. So I think this really 
needs to be absorbed by the U.S. Administration, this 
fundamental change.
    And one thing that was made clear to me when I was in 
Pakistan was that Pakistan has traditionally followed the 
British system where the prime minister does have the majority 
of the power and that there was a sense that many Pakistanis 
wanted to return to that particular mode of government. So I 
think there is definitely interest in moving in that direction. 
How quickly it will happen because of all the political 
instability, because of this three-way power struggle that we 
see, I wouldn't want to hazard a guess.
    Senator Carper. Do you want to add anything to that, Mr. 
Kronstadt?
    Mr. Kronstadt. I would just add that I think it is safe to 
say the default setting for Pakistan since the 1973 
constitution is a parliamentary system of government where the 
prime minister would be the sovereign and head of government.
    Senator Carper. Thank you. If you look at the level of 
popularity or popular support within Pakistan for President 
Musharraf and you look at the drop in our own support, one 
seems to mirror the other. I wonder if he is bringing us down 
or if the converse might be true or something to both of those.
    Mr. Cohen. There is a relationship, and one of the reasons 
he is unpopular is that he seems to be doing our bidding and 
that we have--there have been American incursions in Pakistan 
continuously. The recent attack wasn't the first one.
    Senator Carper. Yes. I want us to talk about that here, and 
this might be a good place to pivot and to talk about that. It 
sounds like a tragic incident that occurred in the last 48 
hours where, I believe, weapons delivered by maybe one of our 
Predators or a Predator-like system may have led to the death 
of a dozen or more Pakistani anti-insurgent troops. Any idea 
how that happened?
    Mr. Krepon. No idea, but I want to lengthen your frame 
thinking about this problem of hot pursuit and bombing on 
Pakistani soil, because it is not so long ago when it was the 
Soviet Union and Soviet fighters and Soviet bombers were 
dropping ordinance on Pakistani territory, the same area. So 
Pakistanis----
    Senator Carper. Bombing folks that we were supporting?
    Mr. Krepon. Well, when we were supporting the Mujahideen, 
they were using Pakistani territory as safe havens and there 
were plenty of instances where the Soviet Union would just 
happen to strafe and bomb Pakistani soil. So we have--I am in 
no way paralleling what the Soviets did in Afghanistan and what 
the United States is doing in Afghanistan. Let me be clear 
about that. But the sanctity of Pakistani soil, which doesn't 
seem to apply to cross-border incursions by pro-Taliban 
elements, does apply to bombing runs.
    So every time the United States finds it necessary to carry 
out an attack by a drone or by some other mean on Pakistani 
soil, there are huge reverberations within the country and it 
impacts on the nuclear security issue that we were talking 
about. It impacts on U.S. popularity within the country. So we 
are on the horns of a dilemma here, and to my way of thinking, 
we have to have really good intelligence when we pick out a 
target on Pakistani soil, current intelligence, and we have to 
have real good communication so that Pakistani forces, 
including the Frontier Corps, are not collateral targets.
    Now, the two of these imperatives can also conflict with 
each other because of problems that Senator Levin was talking 
about. If we give a heads-up, we are not sure that the target 
will be there, and this is really hard.
    Senator Carper. I agree. Dr. Cohen, and then others.
    Mr. Cohen. I don't want to sound too cynical, but for a 
billion dollars, you can bomb a country occasionally, which is 
what we have been doing, in a sense. What is remarkable about 
this last bombing is that none of the Pakistani press reports 
have linked it to the actual amount of money we are giving 
Pakistan, and I think the Administration feels and maybe our 
forces in Afghanistan feel that the part of the billion dollar 
package includes the necessity or the ability--I won't say the 
right, but allowing us to occasionally drop a few weapons into 
Pakistan, and Pakistanis haven't protested that since the 
governor of the Northwest Frontier said, ``If you do this 
again, we will be very unhappy.'' That struck me as a fairly 
weak response from a state, but it could be that this is part 
of where our money is going, in a sense, to buy goodwill, if 
that is the right term, among Pakistani leaders.
    But in the long term, I agree that it is hurting us among 
Pakistani people. Imagine how we would feel if we were being 
bombed occasionally by Canadians or Mexicans or any other 
country. And, of course--that was the point I would make.
    Senator Carper. Does anyone else want to comment on this 
before we move on?
    Ms. Curtis. I just think it points to the need for better 
cooperation, and there have been efforts to move in this 
direction. The establishment of Border Coordinating Centers 
along the border, which would be manned by Pakistani, Afghan, 
and coalition forces--it is my understanding that the 
trilateral meetings that take place between the three have not 
been happening as frequently in the last couple months. Perhaps 
this is because of some of the political instability in 
Pakistan. I am not sure. But I think this just shows how 
important these trilateral efforts are and I hope that Pakistan 
will participate fully in making them successful.
    Senator Carper. All right. Let me just change our focus 
just a little bit. In listening to your testimony today and in 
reading your testimony and some other materials, it strikes me 
that in the Pakistanis' view, India is their major nemesis. 
They don't have a very fond regard for Afghanistan. It sounds 
like the folks who voted in Pakistan in the last 6 months, they 
voted to say that they don't want to become an extremist 
country. They want to basically be a modern society and a 
democratic society, but not one that is governed by religious 
extremists of any quarter.
    Pakistani people, as I understand it, are concerned with 
the upsurge of violence, suicide bombs and that sort of thing 
in their own country, so I don't know if there is a tension 
that is going on here, too. You have got the Taliban or 
remnants of the Taliban there along the border between 
Afghanistan and Pakistan creating mischief over in Afghanistan, 
which may be to the pleasure of some of the Pakistanis, I am 
not sure. But at the same time, to the extent that the Taliban 
and al Qaeda elements are in the mountainous region, the remote 
regions there, they are also in a position where they can 
create mischief for the Pakistanis, too.
    Where do the Pakistanis come down as to what is acceptable 
and what is not, where they are going to have enough or decide 
that it is not--as much as they might like to poke a stick in 
the eye of the Afghanis, the idea of knowing that they are at 
risk, too, in Pakistan is on their minds.
    Also, I look, I think maybe it is not a perfect correlation 
here, but I look at what is happening in the Anbar Province in 
Iraq, where for a number of years there was just a hotbed of 
violence, people killing one another, trying to kill us, the 
Iraqi troops, as well, and the Sunni awakening has emerged, 
taken root, and you have gotten the folks, the people who 
live--the tribal units who live in that province have said, 
enough. We are going to turn to work in concert with the U.S. 
forces, with the Iraqi forces, and to turn against the al Qaeda 
and Iraq elements.
    Are there any lessons to be learned from what has happened 
in the Anbar province that might apply in some way to Pakistan? 
I am not sure if there are, and I acknowledge it is not a 
perfect correlation.
    Mr. Cohen. I think in Pakistan, what has happened is that, 
among Pakistani civilians especially in the Eastern part of the 
country where the major cities are----
    Senator Carper. Excuse me just for a minute. What we have 
tried to do in Iraq, as you know, we tried to take the lessons 
from Anbar Province and tried to apply them in other parts of 
the country, and I think with some success. I don't know if it 
is transferrable from one country to another.
    Mr. Cohen. No, I think much of it is, and in the case of 
Pakistan, especially the Eastern portions of Pakistan, the 
civilian population has been repelled by these suicide attacks 
and they do not want to be subject to extremist Islamic rule. 
They are generally secular Muslims. They voted for two major 
secular political parties. And frankly, I was surprised that 
the election took place relatively freely, Musharraf didn't 
intervene, but I was not surprised that the Islamist parties 
did badly and the secular parties did well. So in a sense, 
there is hope for Pakistan, and that is where most of the 
people live.
    But there is still ambivalence in the military. They still 
regard India as a major threat and one of the theaters in which 
they combat India is Afghanistan. So I think you asked what are 
their intentions in Afghanistan. They want to have it both 
ways. They want our assistance, but they also want to make sure 
they have a hand in Afghanistan because from their point of 
view, Afghanistan is a critically important backyard for them. 
It is not that they have expansionist plans, but they don't 
want to see other countries fill into Afghanistan. So you can't 
separate the two.
    Let me make a point which hasn't been made here but I think 
is very important. From an American perspective, neo-American 
perspective, the Taliban is not important. Taliban are not 
going to reach out and hurt us. Al Qaeda can and will and has. 
It is Taliban's willingness to host al Qaeda that is the 
danger. So if I had a choice of Afghanistan becoming Taliban 
without al Qaeda, I might take it rather than an endless war. 
So I think you have to bear in mind that from an American point 
of view, neo-American point of view, al Qaeda is the real 
threat. For most Pakistanis, also, al Qaeda is seen as an un-
Pakistani kind of organization. They are seen as foreigners.
    Senator Carper. That is an excellent point. Thank you for 
making it. Anyone else on this issue I have raised?
    Ms. Curtis. Well, I think I have a different view in that I 
see the Taliban and al Qaeda, they have a symbiotic 
relationship and I think that you can't get rid of one without 
dealing with the other, and I think this has been the 
fundamental problem because I do think that most Pakistanis 
would not see it that way and they have a hope of separating 
the two. And I think if you look at the leadership connections 
and support for each other, while they might have short-term 
objectives that differ, they certainly support each other, they 
cooperate, and I don't see that kind of cooperation ending any 
time soon.
    So I think that would be a fallacy and I think that would 
be a mistake because we know--we have seen what happens when 
the Taliban is in power in Afghanistan and we saw Afghanistan 
become a sanctuary for al Qaeda, for terrorists, and I think it 
would be a mistake if we don't recognize that fundamental 
threat.
    And I think what Mr. Cohen just articulated is the 
Pakistani assumption that the United States is not going to 
stay in Afghanistan. It is going to turn its back. It is going 
to leave, and that is why Pakistan has to continue to protect 
its own interests. And I think this is something that we need 
to overcome because this is hurting our ability to achieve the 
aims that we want to achieve in Afghanistan. So I think that 
the more that we remain committed, demonstrate we are 
committed, will commit troops, will commit resources, will keep 
the international community focused, as well, I think we will 
be able to achieve our objective not only in Afghanistan, but 
Pakistan, as well.
    Mr. Cohen. Ms. Curtis, I said if we could separate al Qaeda 
and Taliban, but Taliban appear to be the sea in which the al 
Qaeda are swimming.
    Ms. Curtis. Right.
    Senator Carper. All right.
    Mr. Kronstadt. Mr. Chairman, could i just echo what Ms. 
Curtis was talking about? I want to emphasize, I think, the 
importance of the long-term commitment. It is easy to sit in 
Washington and make conclusions about what is going on there, 
but for the people there and in Pakistan, with the history--
experiencing a history of seeing the United States seem to 
abandon the region or become disengaged from the region, they 
have continued to see a friendly government in Kabul as being 
in their very keen interests and that becomes a special focus 
with any signs that the United States might not be committed.
    So it is not possible to make a long-term commitment by 
making a long-term commitment. It, of course, has to be lived 
out that way. But I think to the extent that the Pakistanis are 
reassured in that regard, it would serve U.S. interests.
    Senator Carper. Thank you. A couple of short questions and 
then we will call it a day. Thank you for bearing with us.
    Is there any recent evidence of Pakistani intelligence or 
military officials supporting terrorist elements in acquiring 
or training to use nuclear or chemical or biological weapons 
that you might share with us?
    Mr. Krepon. Well, the----
    Senator Carper. Or technology relating to those.
    Mr. Krepon. Right. The public record has plenty of evidence 
of technology transfer, no evidence of the transfer of fissile 
material, bomb-making material, no evidence of the transfer of 
bombs. The available evidence in the public domain may grow. We 
are getting little bits and pieces along the way. There is 
probably much we will never know about the complete picture. 
But A.Q. Khan seems to have drawn the line, at least as far as 
we know, with respect to technology transfer.
    Senator Carper. Thank you. Others, please. Dr. Cohen, 
anything you would like to add? Ms. Curtis.
    Ms. Curtis. You meant technology transfer to terrorist 
groups?
    Mr. Krepon. Oh, no. Thank you very much for clarifying. 
These are to governments, not to non-state actors.
    Senator Carper. All right. But the question I was asking--
maybe I wasn't clear, but we are looking for evidence that 
might suggest that Pakistani intelligence or military officials 
may be supporting terrorist elements in acquiring nuclear, 
chemical, biological weapons or weapons technology.
    Mr. Krepon. I know of no such public evidence.
    Senator Carper. Good. Thank you. Anyone else? Dr. Cohen.
    Mr. Cohen. I have never heard of anything.
    Senator Carper. All right. Ms. Curtis.
    Ms. Curtis. No, never heard of anything like that, and I 
just wanted to add that also in former Director of Central 
Intelligence George Tenet's memoirs, he points out that A.Q. 
Khan rebuffed several approaches by Osama bin Laden for access 
to nuclear know-how. So I just wanted to point that out.
    Senator Carper. All right. Thank you. Another question, 
really for all of you, but particularly for the three that I 
directed the last question to. What is the biggest threat to a 
secure nuclear arsenal in Pakistan? For example, is it a threat 
by terrorists or other militants? Is it a military coup, a 
leakage of nuclear materials or expertise? I am not sure if it 
was Mr. Krepon or Dr. Cohen who was talking about heightened 
threat with India. The movement of nuclear weapons pose a 
greater threat.
    Mr. Krepon. In my judgment, it is not the take-over of the 
government or a coup within the army leadership by radical 
Islamic elements. It is not that. Pakistan is not that kind of 
a country. My judgment is the biggest threat right now is 
prolonged governmental incoherence.
    Senator Carper. All right. Thank you.
    Mr. Cohen. Yes. I had four nuclear-related problems or 
threats. I didn't assign a probability to any of them. I would 
say that--well, and I can't do that now. It would take a more 
detailed analysis. But I agree with Mr. Krepon that instability 
in the government generally could lead to problems. Another 
crisis with India might force the Pakistanis to put their 
nuclear weapons on the road again, in a sense, disperse them. 
If that took place simultaneous with the domestic political 
crisis in Pakistan, then you would have both opportunity and 
availability. Again, that is the perfect storm of situations to 
create a nuclear crisis. But again, the possibility is low, 
probability is low, but the consequences would be very great.
    Senator Carper. All right. Thank you. Anyone else? Please.
    Ms. Curtis. Well, I think another threat would be retired 
nuclear scientists or retired military terrorists gaining 
access that way. I agree that it is not the overthrow of the 
government. That is highly unlikely to result in such a danger. 
But I point to something that happened in 2001 where two 
retired Pakistan Atomic Energy Commission officials were found 
to be meeting with terrorists, I think with Osama bin Laden 
himself, and this was something that the United States brought 
to the attention of the Pakistanis. So I think this points out 
the need for personnel reliability programs. It points at the 
need for the United States continuing to help Pakistan in 
securing its nuclear weapons.
    Mr. Cohen. Yes. Senator, you should know that--I am sure 
you are aware that A.Q. Khan is, in a sense, on the loose 
again. He visited the Pakistan Atomic Energy Commission, 
visited old friends there----
    Senator Carper. Isn't he supposed to be under house arrest?
    Mr. Cohen. Oh, no. He has received visitors. He has 
traveled around Pakistan. He has visited the Pakistan Atomic 
Energy Commission headquarters which are in Islamabad, not too 
far from his house, in fact.
    Senator Carper. And I understand he has recanted some of 
his earlier----
    Mr. Cohen. Well, and he has also recanted--I think this is 
an unfolding story. I am not quite sure whether he is telling 
the truth now or he told the truth then. I wouldn't draw 
conclusions one way or the other. You get into the whole 
classified realm at that point.
    Senator Carper. All right. OK. The last question I have is 
how credible do you find the Pakistani government's disavowal 
of any knowledge of Mr. Khan's proliferation activities, 
especially in light of his recanting of his confession? Any 
thoughts on that?
    Mr. Krepon. I don't think these disavowals, blanket 
disavowals, are credible. I do think that each of his 
activities needs to be looked at separately. I see separate 
motivations, separate rationales, and separate possibilities 
for collusion with certain governmental officials in each of 
these cases. So I wouldn't wrap everything together. The only 
general conclusion I would make in answer to your question is 
that the non-collusion of others is very implausible.
    Senator Carper. All right. When you look at the 
relationship between Pakistan and, we will say, North Korea, in 
terms of the exchange of technology, does it make sense for the 
Pakistanis to want to trade nuclear weapons technology in 
exchange for weapons delivery technology? Is that a reasonable 
trade or not?
    Mr. Krepon. No, not now.
    Senator Carper. No, in the past.
    Mr. Krepon. In the past, Pakistan was in a bind. Pakistan 
was looking at India's missile programs advancing across a 
broad front and Pakistan was stuck and it needed missiles and 
it went to two countries for help. It went to China for help 
with respect to solid fueled missiles and it got help. And it 
went to North Korea for help with liquid fueled missiles. 
Pakistan didn't put all its eggs in one basket. What we are 
trying to get to the bottom of is what the basis of the 
transaction was with North Korea.
    Senator Carper. Do you think we will ever know?
    Mr. Krepon. Well, there is a new piece that has come into 
the public domain. It does appear that even though North Korea 
doesn't admit it, that they got some help with respect to 
centrifuge technology, the technology to enrich uranium. 
Pakistan's bomb program was going down a separate route, 
plutonium production, and it appears that Pakistan got some 
help on centrifuges. Now, whether this was a discrete 
transaction, as has recently been reported, we still haven't 
gotten to the bottom of it.
    Senator Carper. All right. Anyone else on this point?
    Mr. Cohen. I would just add that it is my experience that 
one of A.Q. Khan's great assets was his Rolodex, which he 
apparently has shared with other countries. That is, he knew, 
and he talks about this now, he knew a lot of places in Europe 
where he could buy this stuff, buy the technology, put the 
pieces together, and so presumably he kept it secret by only 
telling one country at a time.
    Senator Carper. OK. I am going to do something--I don't 
often do this, but I am going to ask each of you to take maybe 
one minute. In the House of Representatives--I used to be a 
House member years ago, but we had the opportunity at the 
beginning of business every day when the House opened for 
business to give a one-minute speech on any subject of our 
choice. I am not going to ask you to speak on any subject of 
your choice, but if there is something that you would like to 
just reiterate, to underline, or given the conversation we have 
had here today you think is especially relevant as a take-away 
for me and for my colleagues, or anyone else that might be 
following this and interested in this discussion, what might be 
your one-minute speech or your one-minute closing comments? Mr. 
Kronstadt.
    Mr. Kronstadt. Mr. Chairman, thank you. I, of course, won't 
have any speech for you, but I would just reiterate a couple of 
points.
    Senator Carper. Please.
    Mr. Kronstadt. One is, and I think these have been 
illuminated some at the hearing today, just how complex the 
situation is in Pakistan----
    Senator Carper. Well, if nothing else is clear, that is.
    Mr. Kronstadt. Well, the challenge is clear and I am, I 
think, encouraged by signs that the U.S. Government is focusing 
more clearly on addressing these challenges, and the hearing 
you have called today is evidence of that.
    And I would again call attention to the role of mutual 
respect and trust. Again, long-term commitment is something 
that everyone agrees the United States is pursuing with 
Pakistan and the proof is in the pudding. As Dr. Cohen 
mentioned, there are going to be times when there will be a 
reflex to pull back and that can be reevaluated in the context 
of the complexity.
    So I think a lot of the problems that have been raised here 
today can be traced back to a kind of fundamental distrust or 
trust deficit between the two countries and between the 
governments of the two countries, and to the extent this can be 
ameliorated, it would serve us well.
    Senator Carper. Good. Thank you. Ms. Curtis.
    Ms. Curtis. I guess I would just say from your doing 
Congressional oversight, don't forego the good for the perfect. 
I have seen this happen too many times. Certainly the oversight 
has to be done, but in a case like Pakistan, sometimes you have 
to move forward if you don't have all the answers ready before 
you, and I say this reflecting on the FATA development plan and 
the $750 million in assistance that we are now moving forward 
with. We probably should have done it a long time ago. I 
understand there were a lot of questions in Congress. How do we 
know if the money is going to go to the right people? Sometimes 
you just have to move forward and then learn as you go.
    I would just say, I received very good briefings when I was 
in Pakistan on what we are doing with our assistance that has 
begun to flow into the Tribal Areas and I am very encouraged. 
The program is being conducted very creatively, very 
professionally. My one concern would be that as the plan--the 
more money goes in, big aid goes in, that the same structure is 
not kept. So I would just urge you, your staffers to get the 
briefing, what is happening now, and try to keep that same kind 
of structure going for as long as possible.
    And also on the Reconstruction Opportunity Zone issue, here 
is another issue where something that makes eminent sense, but 
I understand because we are trying to use trade or private 
investment for really a counterterrorism goal, that is 
difficult legislatively to do, but it is so incredibly 
important and, I think, will contribute tremendously to 
overcoming a lot of the complicated problems that we have been 
talking about today. So I would just end on that note.
    Senator Carper. Good. Thank you. Mr. Krepon.
    Mr. Krepon. I would like to thank you very much for holding 
this hearing.
    Senator Carper. No, we are the ones who are indebted to 
each of you. Thank you.
    Mr. Krepon. I would like to leave you with a thought----
    Senator Carper. It wouldn't have been much of a hearing 
with just us. Some of these guys are pretty good. Senator Levin 
is good and Senator Feingold is good, so is Senator Coburn. But 
it wouldn't have been much of a hearing without all of you.
    Mr. Krepon. I want to leave with you a message that still 
rings in my ear that Richard Armitage talks about. He was the 
Deputy Secretary of Defense in the first Administration. It is 
awfully hard to see how Afghanistan becomes a success story if 
Pakistan fails, and vice-versa. We really--this is doubly hard 
because we need two successes.
    And so this is taking me back to something that Senator 
Levin talked about. The Frontier Corps is a very weak reed and 
it is not clear if they can get the job done. What has been 
clear so far is that the regular Pakistan army has not been 
able to do very well in countering these groups that are 
causing so much trouble. It is going to take a while to get the 
Pakistan army trained and equipped to deal with this problem. 
It will probably take even longer for the Frontier Corps. And 
it is not clear whether intent will be properly aligned with 
the capability once the capability grows. But I am having a 
hard time seeing what other instruments we have got to work 
with in tackling this problem.
    So what is the right number? What is the right amount of 
money? I don't know. How do we monitor what is spent? Tough 
problem. But I don't see a dual success story unless we invest 
in the current direction. So I would ask you, like Ms. Curtis, 
these are very imperfect policy initiatives, but I don't see 
something better out there.
    Senator Carper. Thank you. Dr. Cohen.
    Mr. Cohen. I agree that these new initiatives are important 
and I think they should be pursued, and I think that the real 
problem in Pakistan is it is still an unsettled country. But we 
do have resources and we have assets and I say the Chinese, we 
should be working with the Chinese to some degree, a 
considerable degree, with India to a degree, to some degree the 
Saudis. The Chinese and the Saudis aren't interested in 
promoting democracy anywhere, let alone in Pakistan, but 
clearly they have an interest in the outcomes in Pakistan.
    So I think that I was pleasantly surprised at the way in 
which the election was held, the way in which young people are 
revitalizing Pakistani politics. Pakistan is----
    Senator Carper. Like America.
    Mr. Cohen. Yes, there are some analogies. Pakistan is like 
somebody who is caught in a door. It can't go forward to 
democracy, but it doesn't want to go backward to dictatorship. 
As long as it is stuck between there, we are going to have 
problems with Pakistan. So I think we should continue the 
present programs we have had. I think we should make a lot of 
them conditional.
    Sometimes we give foreign aid for not obvious reasons, and 
I refer to essentially the bombings in Pakistan and obviously 
that is going to take place. But our developmental aid should 
be seen by the Pakistani people as aimed towards their 
betterment and their improvement. In a way, I think we have 
been very negligent in that and I think we have been cynical in 
the way in which we supported a military leader who is not a 
great Ataturk--who is not a great man--I think he was well 
intentioned, but not up to the job--in lieu of broadening our 
contacts with the Pakistani people. That has changed quickly, 
but I hope the next American Administration changes it even 
further.
    So I am optimistic about Pakistan in the--I can't say I am 
optimistic about Pakistan, but failure would create much 
greater problems for us and for all of Pakistan's neighbors.
    Senator Carper. All right. Well, I am glad we took that 
extra minute or two for each of you.
    I mentioned to Wendy Anderson, who works on our Majority 
staff here, and to Trey Hicks, who works for Dr. Coburn on the 
Republican side, this has just been an extraordinarily good 
hearing, starting with Senator Feingold and with Mr. Camp and 
then finally with the four of you. I want to thank the members 
of our staff for, first of all, helping us--members don't think 
of all this by themselves and come up with a witness list by 
ourselves by any stretch, as you know.
    But you have provided a great deal of illumination in an 
area of the world in which our policy needs illumination, and 
have certainly for this Member and think for others helped 
better inform our path ahead. For that, I am very grateful, and 
speaking for my colleagues, we are grateful. They are grateful, 
as well.
    The hearing record will remain open for two additional 
weeks. During that period of time, some additional questions 
may be raised. Members can offer statements for the record. And 
I would just ask if you do receive a question or two from my 
colleagues, if you would take a few minutes and try to respond 
promptly to those questions so that your response can be 
submitted for the record, too, that would be just terrific.
    With that, this hearing is adjourned. Thank you so much.
    [Whereupon, at 5:21 p.m., the Subcommittee was adjourned.]





















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
